APPENDIX A

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 1 of 18

UN ITE D STA TES DISTRIC T C O U RT
SOUTH ERN DISTRICT OF FLORIDA

CASENO.1 6 -2 0 5 1 9 sF-LENIFD
18U.S.C.j1349
18U.S.C.j 1341
18U.S.C.j1343
18U.S.C.j981(a)(1)(C)

> ôODMAN

IJNITED STA'rES OF AM ERICA
5rS.

JAM ES SABA TINO,
a/lk/a ddlam esProlim a,''
a/k/a ddlim m y Prolim a,''
a/k/a Sdlam es H arvey,''
a/k/a Rtdenny Santiago,''
a/k/a çélim m y G utta,''

''

FILED by

D i
j
f;t

.

A .

JUN 32 2216
STEW N M.LARIe RE
euçRK tls asT cT

s.o.dit#.-t-kul

JORGE DUQIrEN,
a/k/a <çl'
law k,''
V A LERIE K A N'H UN T ,
a/k/a ddNralH unt,''
a/k/a ids'alH unts,''
a/k/a Rs'alerie H unter,''and
DE NISE SIK SH A LEW IS,
a/k/a ddD ee L ewis,''
a/k/a 6ED *Lew is,''
a/lt/a $<Shug,''
Defendants.

/
IN D ICTM EN T

The G rand Jury chargesthat:
COUNT 1
Conspiracy to C om m itM ailand W ire Fraud

(18 U.S.C.j 1349)
From on or aboutO ctober24,2014,through on oraboutJuly 18,2015,in M iam i-

Dade County,ir the Southern D istrictofFlorida,and elsewhere,the defendants,

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 2 of 18

JA M ES SABA TIN O ,
a/k/a Sdlam es Prolim a,''
a/k/a ddlim m y Prolim a,''
a/k/a éElam es H arvey,''
a/k/a Rluenny Santiago,''
a/k/a iélim m y G utta,''

JORGE DUQUEN,
a/k/a iiïlawk5''
VA LER IE K AY H UN T ,

a/k/a iûVaIHunh''
a/k/a é$VaIHunts,''
a/k/a SdvalerieH unter,''and
DEN ISE SIK SH A LEW IS,
a/k/a éflàee Lew is,''
a/k/a RD @L ew is,''
a/k/a <(Shug,''

did willfully,tllatis,with the intentto furtherthe objects ofthe conspiracy,and knowingly
combine,conspire,confederate,and agree with each otherand with otherpersons known and
unknown to the G rand Jury,to com m itthe follow ing offenses:

(a)

taknowingly,andwithintenttodefraud,deviseandintendtodeviseaschemeand

artificeto defralld and to obtain m oney and property by meansofmaterially false and fraudulent
pretenses, reprllsentations, and prom ises, know ing that the pretenses, representations, and
prom isesw ere false and fraudulentw hen m ade,and forthe purpose ofexecuting such schem e and
artifice,and attem pting to do so,did know ingly cause to be delivered certain m ailm atterby U nited
Parcel Service I'UPS)and FederalExpress(FedEx),private and commercialinterstate carriers,
.

according to the directionsthereon,in violation ofTitle 18,U nited StatesCode,Section l34l;and
t'
3know ingly,and w ith intentto defraud,devise and intend to devise a schem e and
artifice to defralld and to obtain m oney and property by m eans ofm aterially false and fraudulent
pretenses, representations, and prom ises, know ing that the pretenses, representations, and
prom isesw ere falseand fraudulentwhen m ade,and forthepurpose ofexecuting such schem e and

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 3 of 18

artifice,and attempting to do so,did transmit and cause to be transm itted by m eans ofwire
com m unication in interstate com m erce,certain w ritings,signs,signals,pictures, and sounds,in

violation ofTitle l8,United StatesCode,Section 1343.
PUR PO SE O F TH E CO N SPIM CY

2.

Itwasthepup oseoftheconspiracy forthedefendantsand theirco-conspiratorsto

unlawfullyenrichthem selvesbyobtainingand misappropriatingretailitem sfrom luxury storesby
m aking m ateriatly false and fraudulentrepresentations,and by the concealm entofm aterialfacts,
concerning,am lm g other things,the identities ofthe defendants and the intended use ofthe retail
1
'tem s.

M A NN ER AN D M EA N S

The m am er and m eans by which the defendants and their co-conspirators sought to

accomplishtheInbjectsandpulposeoftheconspiracyincluded,amongothers,thefollowing:
Ilefendants JAM ES SABATINO and JIIItIIE IIIJIIIJEN svere incarcerated
togetheratthe f'
ederalD etention Centerin M iam i,Florida.
4.

JA M ES

SA BA TIN O

created

several e-m ail addresses, including

jprolima@ sonylnusicent.com andlsantiago@ sonymusicent.com,forthepurposeofimpersonating
an em ployee ofSony M usic Entertainm ent,a recorded m usic com pany.
JAM ES SA BA TIN O ,using the alias tçlam es Prolim a,''contacted severalluxury
store em ployeesand brand representativesvia telephone calls,e-m ails,and textm essages.D uring
those com m unitrations,SA BA TIN O pretended to be an em ployee of Sony M usic Entertainm ent
and RocN ation, a recorded m usic com pany founded by a prom inent recording artist.

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 4 of 18

SABA TINO 'SIl-m ailsto luxury store em ployees and brand representatives included Sony M usic
Entertainm entand RocN ation logos.
6.

JAM ES SA BA TIN O requested that the luxury store em ployees and brand

representativessendretailitemssuch ashandbags,wristwatches,apparel,andjewelryto various
locations in the Southern D istrictofFlorida.

ZAM ES SABATIN O claimed thatthe retailitem s would be featured in music
videos and prom otional m atelials that w ere being t'ilm ed and produced in M iam i, Florida.
SA BATIN O clttim ed the retailitem s w ould be returned to the luxury stores,and signed letters of
responsibility plom ising the return ofthe retailitem s.
JA M ES SABA TINO instructed the luxury store em ployees and brand
representatives to send the item s to defendants VA LER IE K A.Y H UN T,D EN ISE SIK SH A
LEW IS,and otlzerco-conspiratorsw ho w ere notincarcerated.
la som e instances,the luxury store em ployees and brand representatives shipped
the retail item s via UPS and FedEx.In other instances,the luxury store em ployees and brand
representativeslnade the retailitem s available forpick-up by VA LER IE K AY H U N T,D EN ISE
SIK SH A LEW IS,and otherco-conspirators.
JAM E S SA BA TIN O ,using the alias tçlam es Prolim a,'' anunged for lim ousine
transportation alld hotelaccom m odations forVA L ERIE IQAY H U NT and otherco-conspirators.
(lnce VA LER IE IQAY H U NT and D EN ISE SIK SH A LE W IS received the retail

items,JAM ES SABATINO and JORGE DUQUEN directed HUNT and LEW IS to sellthe
item satpaw n shopsin South Florida and elsew here.

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 5 of 18

12.

VA LER IE K AY H U NT and D EN ISE SIK SH A LEW IS deposited a portion of

theproceedsfrc'
m the saleofthefraudulently obtained retailitemsinto thecomm issary accounts

of JAM ES SABATINO and JORGE DUQUEN, during the time period in which both
SABATINO andDUQUEN wereincarceratedattheFederalDetentionCenterinM iami,Florida.
A llin violation ofTitle 18,U nited StatesCode,Section 1349.
C O UN T S 2-7
M ailFraud

(18U.S.C.j1341)
f'rom on or aboutOctober24,2014,through on oraboutJuly 18,2015,in M iam iD ade County,irtthe Southern D istrictofFlorida,and elsew here,the defendants,
JA M ES SA BA TIN O ,
a/k/a dslam es Prolim a,M
a/k/a ççlim m y Prolim a,''
a/k/a islam esH arvey,''
a/k/a Glwenny Santiago,''
a/k/a 6çlim m y G utta,''

JORGE DUQUEN,
a/k/a éçllaw k5''
V AL ERIE K AY H U N T,
a/lk/a RV aIH untr''
a/k/a d6V aIH unts,''
a/lt/a ççv alerie H unter,''and
D EN ISE SIK SH A LEW IS,
a/k/a RD ee Lew is,''
a/k/a $6D .Lew is,''
a/k/a Rshug,''

did knowingly Itnd w ith intent to defraud,devise and intend to devise a schem e and artifice to
defraud and to c'
btain m oney and property by m eansofm aterially false and fraudulentpretenses,
representations,and prom ises, know ing that the pretenses,representations,and prom ises were
false and fraudulentw hen m ade,and for the pulpose of executing such schem e and artifice,and

attem pting to d() so,did know ingly cause to be delivered certain m ail m atter by United Parcel

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 6 of 18

Service(UPS)andFederalExpress(FedEx),privateandcommercialinterstatecarriers,according
to the directions thereon,in violation ofTitle 18,United States Code,Section 1341.
PU R PO SE O F TH E SC H E M E A ND A RTIFIC E

It w as the purpose of the schem e and artifice for the defendants and their
accom plicesto lm law fully enrich them selves by obtaining and m isappropriating retailitem sfrom
luxury stores b)'m aking m aterially false and fraudulentrepresentations,and by the concealm ent
ofm aterialfacts,concerning,am ong otherthings,the identitiesofthe defendantsand the intended
use ofthe retailitem s.
TH E SCH EM E A ND A RTIFIC E

Paragraphs 3 through 12 of the M anner and M eans section of Count 1 of this
lndictm entare rz-alleged and incom orated by reference herein as a descliption ofthe schem e and
artitice.
U SE O F TH E M AILS

4.

C)n or about the dates specified as to each countbelow ,the defendants, for the

pulpose of executing and in furtherance of the aforesaid schem e and artifice to defraud and to
obtain m oney and property from others by m eans ofm aterially false and fraudulent pretenses,
representations, and prom ises,and attem pting to do so, did know ingly cause to be delivered,
directly and indlrectly,by U PS and FedEx,private and com m ercialinterstate carriers,according
t()the directionsthereon,the item sidentitied below in each count:

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 7 of 18

C O UN T

A PPR O X .D ATE

D ESCR IPTIO N O F M A ILIN G

2

June 19,2015

3

June 29,2015

4

June 30,2015

5

July 9,2015

6

July 10,2015

7

July 10,2015

O ne parcelcontaining retailitem sm ailed by a
representative of A lexander W ang, lnc. via
FedEx in N ew Y ork,N ew Y ork,to D enise at
Lewis Vision Studios, in Pom pano Beach,
Florida
Oneparcelcontaining retailitem s m ailed by a
representative of Judith Leiber Couture,Ltd.
via FedEx in N ew Y ork,N ew York,to D ee
Lew is/lam es Prolim a, in Pom pano Beach,
Florida
One parcelcontaining retailitem sm ailed by a
representative of Judith Leiber Couture,Ltd.
via FedEx in N ew York,N ew York,to D ee
Lew is/lam es Prolim a, in Pom pano Beach,
Florida
One parcelcontaining retailitem sm ailed by a
representative of N autica via FedEx in N ew
Y ork,N ew Y ork,to Jam es Prolim a,in D avie,
Florida
O ne parcelcontaining retailitem sm ailed by a
representative of N autica via U PS in N ew
Y ork,N ew Y ork,to Jam esProlim a,in D avie,
Florida
O ne parcelcontaining retailitem sm ailed by a
representative of Tiffany and Com pany via
U PS in N ew Y ork,N ew Y ork,to E.M .,in Fort
Lauderdale,Florida

ln violation ofTitle 18,U nited States Code,Sections 1341 and 2.
CO U N TS 8-14
W ire Fraud

(18U.S.C.j 1343)
From on oraboutO ctober 24,2014,through on oraboutJuly 18,2015,in M iam iDade County,in the SouthenzD istrictofFlorida,and elsew here,the defendants,

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 8 of 18

JA M E S SA BA TIN O ,
a/k/a çflam es Prolim a,''
a/k/a 6çlim m y Prolim a,''
a/k/a Rlam es H arveyr''
a/k/a 6dtzenny Santiago,''
a/k/a çflim m y G utta,''

JORGE DUQUEN,
a/k/a é<llaw k ''
V AL ERIE IG Y H U N T,
a/k/a $çV aIH unt,M
a/k/a çéV aIH unts,''
a/lk/a Gv alerie H unter,''and
D EN ISE SIK SH A LEW IS,
a/k/a d6D ee L ew is,''
a/k/a C6D .Lew is,''
a/k/a ç$Shug,''

did know ingly Im d w ith intent to defraud,devise and intend to devise a schem e and artifice to
defraud and to (,btain m oney and property by m eansofm aterially false and fraudulentpretenses,
representations,and prom ises,knowing that the pretenses,representations,and prom ises w ere
false and fraudt.
lentwhen m ade,and for the purpose of executing such schem e and artifice,and
attem pting to dc.so,did transm itand cause to betransm itted by m eans ofw ire com m unication in
interstate and foreign com m erce,certain w ritings,signs,signals,pictures,and sounds.
PU R PO SE O F TH E SC H EM E A ND A R TIFIC E

I'r w as the purpose of the schem e and artitice for the defendants and their
accom plices to Itnlaw fully enrich them selves by obtaining and m isappropriating retailitem s from
luxury stores bl m aking m aterially false and fraudulentrepresentations,and by the concealm ent
ofm aterialfacts,concerning,am ong otherthings,the identitiesofthe defendantsand the intended
use ofthe retailitem s.

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 9 of 18

TH E SCH EM E A ND A RTIFICE

l'aragraphs 3 through 12 of the M anner and M eans section of Count 1 of this

Indictmentarele-alleged and incorporated byreferenceherein asadescription oftheschem eand
artitice.
USE O F TH E W IR ES

()n or aboutthe dates specified as to each countbelow ,in the Southern D istrictof
Florida,and elsew here,the defendants,for the purpose of executing,and in furtherance of,the
aforesaid schem e and artifice to defraud and to obtain m oney and property by m eansofm aterially
false and fraudulentpretenses,representations,and prom ises,did know ingly transm itand cause to
be transm itted,(lirectly and indirectly,by m eansofw ire com m unicationsin interstate and foreign
com m erce,celttin w ritings,signs,signals,pictures,and sounds,as m ore specifically described
below :
C O U NT

A PPR O X .DA TE

D ESCR IPTIO N O F W IRE
C O M M UN IC A TIO N

8

June 25,2015

Electronic m ail from JA M ES SA BA TIN O at

jprolima@ sonymusicent.com in M iami,Florida,
to a representative ofCartierU SA in N ew Y ork,
N ew York, in w hich SA BA TIN O identified
him self as a representative of Sony M usic
Entertainm ent and RocN ation and requested
wristw atches and eyew ear for use in a m usic
video production featuring prom inent recording
artists

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 10 of 18

CO UN T

A PPRO X .D A TE

DE SC R IPTIO N O F W IR E
C O M M U N ICA TIO N

9

June 25,2015

Electronic m ail from JA M ES SA BA TINO at

jprolima@ sonymusicent.com in M iami,Florida,

10

June 29,2015

to a representative of Tiffany and Com pany in
N ew Y ork, N ew York, in which SA BA TIN O
identified him self as a representative of Sony
M usic Entertainm ent and RocN ation and
requested ahandbag and awristwatch foruse in a
m usic video production featuring prom inent
recording artists
Electronic m ail from JA M ES SA BA TIN O at

jprolima@ sonymusicent.com in M iami,Florida,

11

June 29,2015

to a representative ofJudith Leiber Couture,Ltd.
in N ew Y ork,N ew Y ork,in w hich SA BA TIN O
identitied him self as a representative of Sony
M usic Entertainm ent and RocN ation and
requested a handbag for use in a m usic video
production featuring prom inentrecording artists
Electronic m ail from JA M ES SA BA TIN O at

jprolima@ sonymusicent.com in M iami,Flolida,

12

July 8,2015

to a representative ofJudith LeiberCouture,Ltd.
in N ew Y ork,N ew York,in w hich SA BA TIN O
identified him self as a representative of Sony
M usic Entertainm ent and R ocN ation and
requested tracking inform ation for a package
containing Judith LeiberCouture,Ltd.handbags
Electronic m ail from JA M ES SA BA TINO at

jprolima@ sonymusicent.com in Miami,Florida,
to a representative of Tiffany and Com pany in
N ew York, N ew York, in which SA BA TIN O
identified him self as a representative of Sony
M usic Entertainm ent and RocN ation and
requested a w ristw atch foruse in an album cover
artwork production featuring a prom inent
recording artist

10

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 11 of 18

CO UN T

A PPRO X .D A TE

DE SC R IPTIO N O F W IR E
C O M M U N ICA TIO N

13

July 8,20l5

Electronic m ail from JA M ES SA BA TINO at

jprolima@ sonymusicent.com in M iami,Florida,
to a representative of Cartier U SA in N ew York,
N ew York, in which SA BAT IN O identified
him self as a representative of Sony M usic
Entertainm ent and RocN ation and requested
eyewear for use in an album cover artwork
production featuring a prom inentrecording artist

14

July 13,2015

Electronic m ail from JA M ES SA BA TIN O at

jprolima@ sonymusicent.com in M iami,Florida,
to a representative of A udem ars Piguet lnc. in
N ew Y ork, N ew Y ork, in which SA BA TIN O
identified him self as a representative of Sony
M usic Entertainm ent and RocN ation and
requested wdstw atches foruse in an album cover
artw ork production featuring
prom inent
recording artist
ln violation ofTitle 18,U nited States Code,Sections 1343 and 2.
FO R FEITU RE

(18U.S.C.j981(a)(1)(C))
'
l'he allegations of this lndictm ent are realleged and by this reference are fully

incolporated hel'
ein forthepurposeofalleging forfeiture to theU nited StatesofAm erica ofcertain

propertyinwhilrh thedefendants,JAM ES SABATINO,JORGE DUQUEN,VALERIE KAY
H U NT ,and D EN ISE SIK SH A L EW IS,have an interest.

tlpon conviction of a violation of Title l8, United States Code, Sections 1341,
1343,and/or 1349,as alleged in this Indictm ent,the defendants shall each forfeitto the U nited
States of Am erica any property,realor personal,which constitutes or is derived from proceeds

traceabletosucllviolations,pursuanttoTitle 18,UnitedStatesCode,Section 98l(a)(1)(C).

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 12 of 18

l-hepropertysubjecttoforfeitureincludes,butisnotlimitedtoaforfeituremoney

judgmentand:
Three(3)JudithLeiberCoutureclutchbags,seizedonoraboutAugustl2,
2015;

ii. Two(2)AudemarsPiguetwatches,seizedon oraboutAugustl2,20l5;

iii, Eleven(11)Tiffany& Co.braceletsandwatches,seizedonoraboutAugust
12,2015;

Thirteen(13)JimmyChoohandbagsand shoes,seized on oraboutAugust
12,2015;

Three(3)AlexanderW angtotebags,seizedonoraboutAugust12,2015'
,
vi. One(1)Judith LeiberCoutureclutch bag,seized on oraboutAugust19,
2015;and

A/ii. Ten (10)Jimmy Choohandbagsandshoes,seizedon oraboutAugust19,
2015.

lt
-any ofthe property described above,as a resultofany actorom ission ofany of
the defendants:

cannotbe located upon the exercise ofdue diligence'
,
b.

hasbeen transferred or sold to,ordeposited w ith,a third party;

hasbeenplacedbeyondthejurisdictionofthecourt;
hasbeen substantially dim inished in value;or

hasbeen com m ingled w ith otherproperty which cannotbe divided
w ithoutdifficulty,
tlze United StatesofA m erica shallbe entitled to forfeiture ofsubstitute property pursuantto Title

21,UnitedStatesCode,Section853(p),asincomoratedbyTitle28,UnitedStatesCode,Section
2461(c).

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 13 of 18

AllpursuanttoTitle18,UnitedStatesCode,Section981(a)(1)(C),asincorporatedbyTitle
28,United StatesCode,Sedion 2461(c),and theproceduressetforth in Title21,United States
Code,Section 853.

A TRU E BILL
/

FO REPERSON

i

y j= j

W IFRED O A .f'ERRER
tW ITED STA TES A TTO RN EY

CH RISTO PHEItB .BROW N E
A SSISTA N T U NITED STA TES A TTO RN EY

13

UNITED STATES DISTRICTCOURT

Case 1:16-cr-20519-JAL Document
3 Entered
onOFFLSD
Docket 07/01/2016 Page 14 of 18
SOUTHERN
DISTRICT
FLO RIDA
UNITED STATES O FAM ERICA

CASE NO.

V5.

CERTIFICATE OFTRIAL AU ORNEY*
JAM ESSABATINO,etaI..
Defendants.

/
CourtDivision:(selectoneI
X

M iam i
FTL

Key W est
W PB

Superseding Case Inform ation:

New Defendantls)

Yes

No

Num berofNew Defendants
Totalnum berofcounts
FTP

Idoherebycertifythat:
Ihave carefully considered the all
egations ofthe indictm ent,the num berofdefendants,the num berof

probablewitnessesandtheIegalcomplexitiesoftheIndictment/lnformationattachedhereto.
Iam awarethatthe informationsuppliedonthisstatementwillbe relieduponbytheJudgesofthisCourtin
settingtheircalendarsandschedulingcrim inaltrialsunderthem andateoftheSpeedyTrialAct,Title28U.S.C.
Sectior 3161.

Interpreter: (YesorNo)
Li
stIanguageand/ordialect

No

Thi
sca'
iewilltakej. daysforthe partiesto try.
Please checkappropriate category and typeofoffenseIisted below :
(Checkonlt'one)

0 to 5 clays
6 to 10 days
11to 2:
) days
21 to 6) days
61 dayf;and over

6.

Ifyes:
Judge:

(Checkonlyone)

X

Petty
M inor
M isdem .
Felony

Hasthi;casebeenpreviouslyfiledinthisDistrictCourt? (YesorNo)

No

Case No.

(Attachcopyof'
jispositiveorder)
Hasacomplaintbeenfiledinthismatter?
Ifyes:
M agistrate Case No.
Related M iscellaneousnum bers:

Defendantts)infederalcustodyasof
Defendantls)in statecustodyasof
Rule 20 from thf,

Isthisapotentialdeathpenaltycase?(YesorNo)

(YesorNo)

No

Istrlcto

No

Doest#liscase originatefrom a matterpending in theNorthern Regionofthe U.S,Attorney'sOffice priorto
October14,2003?
Yes
X
No
8.

Does tblis case originate from a m atter pending in the CentralRegion ofthe U.S,Attorney's Office prior to
Septerrber1,2007?
Yes
.... E.
..NO

CHRISTOPHER B.BROW NE
ASSISTANT UNITED STATES ATTORNEY
Court ID No.91337

*penaltySheetts)attached

REv4/8/:8

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 15 of 18

U N ITE D STA TES DISTRIC T C O U RT
SO U TH ER N D ISTR ICT O F FLO R IDA
PEN A LTY SH EET

D efendant's N am e: JA M E S SABA TIN O
C ase N o:

Count#:l

f-onspiracyto C'
zommitM ailandW ireFraud
Title 18.United StatesCode.Section 1349

*M ax.Penalt):Twenty (20)years'implisonment
Counts#:2-7
M ailFraud
Title 18.U nited States Code,Sections 1341 and 2

*M ax.Penalty:Twenty(20)years'imprisonmentastoeachcount
Counts#:8-14
W ire Fraud

Title 18.United StatesCode,Sections1343 and 2

*M ax.Penalty:Twenty(20)years'imprisonmentastoeach count
Counts#:

*M ax.Penalty:

WR efersonly to possible term ofincarceration,does not include possible fines,restitution,
specialassessm ents,parole term s,or forfeituresthatm ay be applicable.

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 16 of 18

U NITED STA TES DISTRIC T C O U RT
SO UTH ER N D ISTRIC T O F FLO R IDA
PEN A LTY SH EET

DefendantfsName: JO RGE DUOUEN

Count#:1
Conspiracv to C'
zom m itM ailand W ire Fraud
Title 18.U nited States Code-Section 1349

*M ax.Penalt):Twenty(20)years'imprisonment
Counts #:2-7
M ailFraud

Title 18,U nited States Code.Sections 1341 and 2

*M ax.Penalty:Twenty(20)years'implisonmentastoeach count
Counts#:8-14

W ire Fraud
Title 18,U nited States Code.Sections 1343 and 2

*M ax.Penalty:Twenty(20)years'implisonmentastoeachcount
Counts#:

*M ax.Penaltyp

*R efers only to possible term ofincarceration,does not include possible fines,restitution,
specialassessm ents,parole term s,or forfeitures thatm ay be applicable.

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 17 of 18

UN ITE D STA TES DISTR IC T C O U R T
SO U TH ER N D IST R IC T O F FLO RIDA
PEN A LTY SH EET

D efendant's N am e: V A LERIE K AY H U NT
C ase N o:

Count#:l
Conspiracy to Com m itM ailand W ire Fraud

Title 18.U nited StatesC ode,Section 1349

*M ax.Penalty:Twenty (20)yçpp'imprisonment
Counts#:2-7
M ailFraud
Title l8,U nited States CodesSections 1341 and 2

*M ax.Penalty:Twenty(20)years'imprisonmentastoeach count
Counts#:8-14
W ire Fraud

Title 18.United StatesCode.Sections1343 and 2

*M ax.Penalty:Twenty(20)years'imprisonmentastoeach count
Counts#:

*M ax.Penalty:

WR efers only to possible term ofincarceration,does notinclude possible fines,restitution,
specialassessm ents,parole term s,or forfeitures thatm ay be applicable.

Case 1:16-cr-20519-JAL Document 3 Entered on FLSD Docket 07/01/2016 Page 18 of 18

U NITED STA TES D ISTR ICT C O U R T
SO U TH ER N D ISTR ICT O F FLO RIDA
PEN A LTY SH EET
D efendant'sN am e: D ENISE SIK SH A LEW IS

Count#:1

fonspiracy to C'
r
om mitM ailand '
W ireFraud
Title 18.U nited States Code.Section 1349

*M ax.Penalty:Twenty(20)years'imprisonment
Counts#:2-7

Title 18.United States Code.Sections 1341and 2

*M ax.Penalty:Twenty(20)years'imprisonmentastoeach count
Counts #:8-14

W ire Fraud
Title 18.U nited States Code,Sed ions 1343 and 2

*M ax.Penalty:Twenty(20)years'imprisonmentastoeach count
Counts#:

*M ax.Penalty:

eRefers only to possible term ofincarceration,doesnotinclude possible fines,restitution,
specialassessm ents,parole term s,or forfeitures that m ay be applicable.

APPENDIX B

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 1 of 30

U NITED STA TES D ISTR ICT C O U RT
SO U TH ER N DISTRICT O F FLO R IDA
'

CASE NO .16-20519-CR-JAL(s)

18U.S.C.j1962(d)
18U.S.C.j 1349
18U.S.C.j1341
18U.S.C.j1343
18U.S.C.j981(a)(1)(C)
18U.S.C.j1963

z

C.1
4
C:
qX
'.e/l
st$
-o
..w<
.
k*
u
k
J

P@ e
.'

.

uk.tjewO
C
...'q/;
.
i.je
j(
q
j
h
,)
.u
7
.
.
.o
iZ
.h1K
'j#
d$
Vj..
k,I/
&1
.!f
,2
.d
.'
#
.r
Gvj.r
'
C
.-r
ft
.jx
#'j
z..
$<
Q, (
*
.J
''jw
y
.
N
.'
j'j
w'
N'j.
(t
:
.
!.(
*
1(
.,
1
.
:'
)
'1
..
j
r
h
L
u..A
:.
J
'
k!/
.
:$
1à(
/!
.
!
1
'

UNITED STA TES O F A M ERICA
V S.

JA M ES SA BA TIN O ,
a/k/a éilam esProlim a,''
a/k/a Rlim m y Prolim a,''
a/k/a iilam es H arvey,''
a/k/a ééluenny Santiago,''
a/k/a tçlim m y G utta,''
a/lk/a tfpaulC astellana,''
a/k/a Rsam uelC astro,
a/lt/a RA ndrew K ronfeld,''
a/k/a RpaulM arino,''
Defendant.
/

SU PER SE DIN G INFO R M A TIO N
The A cting United States Attorney chargesthat:
COUNT 1
Conspiracy to V iolate the R acketeer lnfluenced and C orruptO rganizations A ct

(18U.S.C.j 1962(d))
A talltim esm aterialto this Superseding lnfonuation:
IN TRO DU C TIO N

D efendantJA M E S SA BA TIN O and others know n and unknow n to the A cting

United States Attorney w ere m em bers and associates ofa crim inalorganization thatengaged in a

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 2 of 30

fraudschemetoobtainvaluableitemssuchasclothing,handbags,shoes,andjewelry,andengaged
in the interstate transportation ofstolen property and in the sale and receiptofstolen goods. Since
atleastas early as O ctober 2014,this crim inalorganization operated in the SouthenzD istrict of
Florida,the N orthern D istrid of Georgia, and the Southern D istdct of N ew York, and other
locations,to advance the organization's crim inalendeavors.
TH E E NTER PR ISE

This crim inalorganization,including its leadership,m em bership,and associates,

constitutedanûûenterprise,''asdefinedbyTitle18,UnitedStatesCode,Section1961(4)(hereinafter
ççtheEnteprise''l,thatis,agroupofindividuals associated in fact.TheEnterprisewasengagedin,
and itsactivitiesaffected,interstate com m erce.The Enterprise constituted an ongoing organization
w hose leaders,m em bers,and associates functioned as a continuing unitforthe com m on purpose

ofachievingtheobjectivesoftheEnterprise.
PU RPO SES A N D O BJEC TIV ES O F TH E EN TERPRISE

ThepurposesandobjectivesoftheEnterpriseincludedthefollowing:
Enriching JA M ES SA BA TIN O and other m em bers and associates of the

Entem rise through,am ong other things,m ailfraud,w ire fraud,and interstate transportation of
stolen property.

M isrepresenting, concealing, and hiding the purposes of, and acts done in

furtherance ofthe conspiracy,and concealing the clim inalactivities com m itted by the Enterprise
in orderto avoid detection.
A lthough the principalpurposes ofthe Enterplise w as to generate m oney for its
m em bers and associates and to advance the Enterplise's interests through fraud, JA M ES
SA BA TIN O at tim es used the resources of the enterprise to settle personal grievances and

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 3 of 30

vendettas.For thosc purposes,SA BA TIN O asked m em bers and associates of the Enterprise to
carry out,am ong othercrim es,actsofviolenee,including m urder.
The m em bers and associates of the entem rise engaged in conduct designed to
prevent govenunent detection of their identities, disruption of their illegal activities, and the

location ofproceeds ofthose activities.
RO LE O F TH E DEFEND A N T

8.

JA M ES SA BATIN O w as a leader of the Entem rise. SA BA TIN O directed and

supervised the activities ofthe other Enterprise m em bers and associates, including the resale of

the fraudulently obtained itemsand the disbursementoftheproceedsto otherEnterprise leaders,
m em bers,and associates.
TH E R AC IQETEER IN G CO N SPIM C Y
9.

From on or aboutOctober 24,2014, through on oraboutApril5,2017,in M iam i-

Dade County,in the Southern DistrictofFlorida, and elsewhere,the defendant,
JA M ES SABA TIN O ,
a/lk/a ççlam esProlim a,''
a/k/a éçlim m y Prolim a,''
a/k/a iflam esH arvey,''
a/k/a Kçluenny Santiago,''
a/k/a Rlim m y G utta,''
a/k/a ççpaulC astellana,''
a/k/a %tsam uelC astro,
a/k/a ççA ndrew K ronfeld,''
a/k/a 6épaulM arino,''

togetherwith othersknown and unknown to the Acting United States Attolmey, being persons
em ployed by and associated w ith the above-described Enterprise, which w as engaged in and the
activities ofw hich affected interstate com m erce, did conspire w ith others know n and unknow n to

the A cting U nited States Attorney,to violate Title 18, United StatesCode,Section 1962(c),that
is,to knowingly conductand participate, directly and indirectly,in the conductofthe affairsofthe

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 4 of 30

Enterprise through apattern ofracketeering activity consisting ofmultiple actsindictable under
the follow ing provisionsoffederallaw :

Title 18,United StatesCode,Section 1341(mailfraudl;
Titlel8,UnitedStatesCode,Section 1343(wirefraudl;
Title 18,United States Code,Section 2314 (interstate transportation of

stolenpropertyl;and
Title 18,United States Code,Sedion 23l5 (sale and l'eceiptofstolen
goods).
ltw as a partof the conspiracy thatthe defendant agreed thata conspirator would
com m itatleasttwo acts ofracketeeling activity in the conductofthe affairs ofthe enterprise.
M E TH O D S A N D M EA NS O F TH E EN TER PR ISE
The m ethods and m eans by w hich the defendant and other m em bers and associates

conducted and participated in the conductofthe affairsofthe Enterprise included, am ong others,
the follow ing:
JAM ES SA BATIN O w as incarcerated atthe FederalDetention Centerin M iam i,
Florida.W hile incarcerated,SA BA TIN O obtained severalcontraband cellular telephones from

corredionalofficersforthepuposeoffacilitatingtheEnterprise'sobjectives.
U sing the contraband cellulartelephones,JAM ES SABA TIN O created severale-

mail addresses, including jprolima@ sonymusicent.com , lsantiago@ sonymusicent.com,
pcastellana@ sonr icturesinteoational.com,scastro@ caaworldwide.com,and an e-mailaddress
associated with the domain name @ umgworldwide.com ,for the purpose of impersonating
entertainm entindustry em ployees and executives.

4

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 5 of 30

JAM ES SA BA TIN O ,using several aliases,contacted luxury store em ployees,

brandrepresentatives,andjewell-ystoreemployecsviatelephonecalls,e-mails,andtextmessages
.

Duling thosecom m unications,SA BA TIN O pretended to be an em ployeeofvariousentertainm ent
industry com panies.SA BA TIN O 'S e-m ailsto luxury store em ployees, brand representatives,and

jewelrystoreemployeessometimesincludedtheentertainmentindustrycompanies'logos.
14.

JA M ES SA BA TIN O requested that the luxury store em ployees, brand

representatives,andjewelrystoreemployeessenditemssuchashandbags,wristwatches,apparel,

andjewelrytovariouslocationsintheSouthel'nDistrictofFlorida.
JA M ES SABA TIN O told the luxury store em ployees, brand representatives,and

jewelry storeemployeesthattheitemswould befeaturedin musicvideos,motionpictures,and
prom otional m aterials that w ere being tilm ed and produced in M iam i, Florida. SA BA TINO
prom ised the item s w ould be retum ed, and created fraudulent docum ents, including letters of

responsibility and certificates of insurance, for the purposc of defrauding the luxury store

employees,brandrepresentatives,andjewelrystoreemployees.
JAM ES SA BA TIN O instructed the luxury store enaployees and brand

representatives to send the item s to Enterprise m em bersw ho w ere notincarcerated.
17.

ln som e instances,the luxury store em ployees, brandrepresentatives,andjewelry

store em ployeesshipped the item sto the Southern DistrictofFloridavia U PS and FedEx. In other
instances,luxury store em ployees,brand representatives, andjewelry storeemployeesmadethe
item savailable forpick-up.In those instances, JA M ES SA BA TINO directed Entem rise m em bers
to travelto storesin the Southern DistlictofFlorida and the Southern D istrictofN ew Y ork to take
possession ofthe fraudulently obtained item s.

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 6 of 30

18.

JA M ES SA BA TIN O arranged forlim ousine transportation,airtransportation, and

hotelaccom m odations forEnterprise m em berstraveling to,from , and within the Southern Distlict
ofFlorida,the N orthern D istrictofGeorgia,and the Southern D istrictofN ew Y ork.
Once the Enterprise m em bers received the fraudulently obtained item s, JAM ES

SABATINO dirededtheEnterprisememberstoselltheitemsatpawn shopsandjewelry stores
in the Southern D istrictofFlorida and the N orthern D istrictofG eorgia.
20.

Enterplise m em bers and associates deposited a portion ofthe proceeds from the

sale ofthe fraudulently obtained retailitem s into JA M E S SA BA TIN O 'S com m issary accountat
the FederalDetention Centerin M iam i,Florida,atSA BA TINO 'Sdirection.
A s a result of the Enterprise's racketeering activities, JA M ES SABA TIN O

defrauded thevictim companiesofatleastapproximately $9,265,400.00.
22.

JA M E S SABA TIN O directed Enterprise m em bersto harm and/orkillindividuals

w ho, SA BA TIN O believed, w ould testify against him and other Enterprise m em bers, and
associates.

JA M ES SA BA TIN O also directed Enterprise m em bers to harm and/or kill
individualswho,SABA TIN O believed,stolefraudulently obtained item s and fraud proceeds from
the Enterprise.
Allin violation ofTitle 18,United States Code, Section 1962(d).
CO UN T 2
Conspiracy to C om m itM ailand W ire Fraud

(18U.S.C.j1349)
From on ol-aboutOctober24,2014,through on or aboutJuly 18, 2015,in M iam iD ade County,in the Southel'n D istrictofFlorida, and elsewhere,the defendant,

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 7 of 30

JA M ES SABA TINO ,
a/lt/a Rlam esProlim a,''
a/k/a Rlim m y Prolim a,''
a/k/a %çlam esH arvey,''
a/k/a Rluenny Santiago,''
a/k/a içlim m y G utta,''
a/lk/a tçpaulCastellana,''
a/k/a Rsam uelCastro,
a/k/a RA ndrew K ronfeld,''
a/k/a EipaulM arino,''

did willfully,thatis,with the intentto furtherthe objects ofthe conspil-acy,and knowingly
eom bine,conspire,confederate,and agree w ith otherpersonsknow n and unknow n to the A cting
U nited StatesAttonw y,to com m itthe follow ing offenses:

to knowingly,and w ith intent to defraud, devise and intend to devise a
schem e and artifice to defraud and to obtain m oney and property by m eansofm aterially false and
fraudulentpretenses,represcntations,and prom ises,know ing thatthe pretenses, representations,
and prom isesw ere false and fraudulentw hen m ade,and forthe purpose ofexecuting such schem e
and artitk e,and attem pting to do so,did know ingly cause to be delivered certain m ailm atterby

United ParcelService (UPS)and FederalExpress (FedEx),private and commercialinterstate
caniers,according to the directions thereon,in violation ofTitle 18,United StatesCode, Section
1341;and
to know ingly, and w ith intent to defraud, devise and intend to devise a

schem e and artificeto defraud and to obtain m oney and property by m eans ofm aterially false and
fraudulentpretenses,representations,and prom ises,knowing thatthe pretenses,representations,
and prom isesw ere false and fraudulentwhen m ade,and forthepurpose ofexecuting such schem e
and artifice,did transm itand cause to be transm itted by m eansofw ire com m unication in interstate
com m erce,certain writings,signs,signals,pictures,and sounds,in violation ofTitle l8,United
States Code,Section 1343.
7

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 8 of 30

PU R PO SE O F TH E C O N SPIM C Y
Itw as the purpose of the conspiracy forthe defendant and his co-conspirators to
unlaw fully enrich them selvesby obtaining and m isappropriating retailitem sfrom luxury storesby
m aking m aterially false and fraudulentrepresentations,and by the concealm entofm aterialfacts,

concerning,am ong other things,the identity of the defendantand the intended use ofthe retail
item s.

The m anner and m eans by w hich the defendant and his co-conspirators sought to

accomplishtheobjectsandpurposeoftheconspiracyincluded,amongothers,thefollowing:
JA M E S SA BATIN O w asincarcerated atthe FederalD etention C enter in M iam i,
Florida.
4.

JA M ES

SA BA TIN O

created

several

e-m ail

addresses, including

jprolima@ sonymusicent.com andlsantiago@ sonymusicent.com,forthepurposeofimpersonating
employeesofSony M usic Entertainm ent,a recorded m usic com pany.
JA M ES SA BATIN O ,using the alias 'klam es Prolim a,''contacted severalluxury

store em ployeesand brand representativesvia telephone calls,e-m ails,and textm essages. During
those com m unications,SA BA TIN O pretended to be an em ployee of Sony M usic Entertainm ent
and RocN ation, a recorded m usic com pany founded by a prom inent recording artist.

SA BA TINO 'Se-m ailsto luxury store em ployeesand brand representativesincluded Sony M usic
Entertainm entand RocN ation logos.
JA M E S SA BA TIN O directed that the luxury store em ployees and brand

representativessendretailitemssuchashandbags,wristwatches,apparel,andjewelrytovalious
locations in the Southern DistrictofFlorida.

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 9 of 30

JA M E S SA BA TINO claim ed that the retail item s w ould be featured in m usic
videos and prom otional m aterials that w ere being film ed and produced in M iam i, Florida.
SA BA TIN O claim ed the retailitem s would be retunzed to the luxury stores,and signed letters of

responsibility prom ising the return ofthe retailitem s.
JA M E S SABA TINO

directed the luxury store em ployees and brand

representatives to send the item sto co-conspiratorsw ho w ere notincarcerated.
In som e instances,the luxury store em ployees and brand representatives shipped

the retail item s via U PS and FedEx.ln other instances,the luxury store em ployees and brand
representatives m ade the retail item s available for pick-up. In those instances, JA M E S
SA BATIN O directed co-conspirators to travelto the stores to pick up the fraudulently obtained
'

1tem s.

JAM ES SA BA TIN O ,using the alias tElam es Prolim a,''arranged for lim ousine
transportation and hotelaccom m odationsforco-conspirators.
Once his co-conspiratorsreceived the retailitem s,JA M ES SA BA TINO directed
the co-conspiratorsto sellthe item satpaw n shopsin South Flolida and elsew here.
Co-conspirators deposited a portion of the proceeds from the sale of the
fraudulently obtained retailitem s into the com m issary accounts ofJA M E S SA BA TINO atthe
FederalDetention Centerin M iam i,Florida.
A1lin violation ofTitle 18,United StatesCode,Section 1349.
C O U N TS 3-8
M ailFraud

(18U.S.C.j1341)
From on oraboutO ctober 24,2014,through on oraboutJuly 18,2015,in M iam iDade County,in the Southern D istrictofFlorida,and elsew here,the defendant,

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 10 of 30

JA M ES SA BA TINO ,
a/lk/a éélam es Prolim a,''
a/k/a délim m y Prolim a,''
a/k/a télam es H arvey,''
a/lt/a éçluenny Santiago,''
a/k/a dçlim m y G utta,''
a/k/a ççpaulC astellana,''
a/k/a dçsam uelC astro,
a/lk/a RA ndrew K ronfeld,''
a/k/a tépaulM arino,''
did knowingly and w ith intentto defraud,devise and intend to devise a schem e and artifice to
defraud and to obtain m oney and property by m eans ofm aterially false and fraudulentpretenses,
representations,and prom ises,know ing that the pretenses,representations,and prom ises w ere

false and fraudulentw hen m ade,and for the purpose of executing such schem e and artitk e, and
attem pting to do so,did know ingly cause to be delivered certain m ailm atter by United Parcel

Service(UPS)andFederalExpress(FedEx),privateandcommercialinterstatecarriers,according
to the directionsthereon.
PU R PO SE O F TH E SC H EM E AN D AR TIFIC E

Itw asthe pup ose ofthe schem e and artitk e forthe defendantand his accom plices
to unlaw fully enrich them selvesby obtaining and m isappropriating retailitem sfrom luxury stores
by m aking m aterially false and fraudulent representations,and by the concealm ent of m aterial
facts,concerning,am ong other things,the identity of the defendant and the intended use of the
retailitem s.
TH E SC H EM E AN D A RTIFICE

Paragraphs 3 through 12 of the M anner and M eans section of Count 2 of this
Superseding lnform ation are re-alleged and incorporated by reference herein as a description of
the schem e and artifice.

10

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 11 of 30

USE O F TH E M A ILS
On or about the dates specitied as to each count below ,the defendant, for the

purpose of executing and in furtherance of the aforesaid schem e and artifice to defraud and to
obtain m oney and property from others by m eans of m aterially false and fraudulent pretenses,

representations, and prom ises,and attem pting to do so,did know ingly cause to be delivered,
directly and indirectly,by U PS and FedEx,private and com m ercialinterstate carliers,according
to the directionsthereon,the item sidentified below in each count:
C O U NT

A PPR O X .D ATE

DE SC RIPTIO N O F M A ILING

3

June l9,2015

4

June 29,2015

5

June 30,20l5

6

July 9,2015

7

July l0,2015

8

July 10,2015

One parcelcontaining retailitem sm ailed by a
representative of A lexander W ang, Inc. via
FedEx in N ew Y ork,N ew Y ork,to D enise at
Lew is V ision Studios, in Pom pano Beach,
Flolida
One parcelcontaining retailitem sm ailed by a
representative of Judith Leiber Couture,Ltd.
via FedEx in N ew York,N ew Y ork,to D ee
Lew is/lam es Prolim a, in Pom pano Beach,
Florida
One parcelcontaining retailitem sm ailed by a
representative of Judith Leiber Couture,Ltd.
via FedEx in N ew Y ork,N ew Y ork,to D ee
Lew is/lam es Prolim a, in Pom pano Beach,
Florida
O ne parcelcontaining retailitem s m ailed by a
representative ofN autica via FedEx in New
Y ork,N ew Y ork,to Jam es Prolim a,in D avie,
Florida
Oneparcelcontaining retailitem sm ailed by a
representative of N autica via UPS in N ew
Y ork,N ew Y ork,to Jam es Prolim a,in Davie,
Florida
O ne parcelcontaining retailitem s m ailed by a
representative of Tiffany and Com pany via
UPS in N ew York,N ew Y ork,to E.M .,in Fol't
Lauderdale,Florida

11

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 12 of 30

ln violation ofTitle l8,United States Code,Sections 1341 and 2.
C O U N TS 9-15
W ire Fraud

(18 U.S.C.j1343)
From on oraboutOctober 24,2014,through on or aboutJuly 18,2015,in M iam iD ade County,in the SouthenzD istrictof Florida,and elsew here,the defendant,
JAM ES SA BA TINO ,
a/k/a Rlam esProlim a,''
a/k/a çtlim m y Prolim a,''
a/k/a çtlam es H arvey,''
a/k/a Rtuenny Santiago,''
a/lk/a Rlim m y G utta,''
a/k/a i6paulC astellana,''
a/k/a tçsam uelCastro,
a/k/a itA ndrew K ronfeld,''
a/k/a t6paulM arino,''

did know ingly and w ith intentto defraud,devise and intend to devise a schem e and artifice to
defraud and to obtain m oney and property by m eansofm aterially false and fraudulentpretenses,
representations, and prom ises,know ing that the pretenses,representations,and prom ises were
false and fraudulentw hen m ade,and forthe pup ose ofexecuting such schem e and artifice,did
transm it and cause to be transm itted by m eans of w ire com m unication in interstate and foreign
com m erce,certain w ritings,signs,signals,pictures,and sounds.
PU R PO SE O F TH E SC H EM E A N D A R TIFICE

2.

Itw asthepurposeofthe schem e and artifice forthe defendantand his accom plices

to unlaw fully enrich them selvesby obtaining and m isappropriating retailitem s from luxury stores
by m aking m atelially false and fraudulent representations,and by the concealm ent of m aterial
facts,concerning,am ong other things,the identity ofthe defendant and the intended use of the
retailitem s.

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 13 of 30

TH E SC H EM E AN D A RTIFIC E
Paragraphs 3 through l2 of the M anner and M eans section of Count 2 of this
Superseding lnfonnation are re-alleged and incorporated by reference herein as a descliption of
the schem e and artifice.
U SE O F TH E W IRES
4.

On or aboutthe dates specified as to each countbelow ,in the SouthenzD istrictof

Flolida,and elsewhere,the defendant, for the purpose of executing,and in furtherance of,the
aforesaid schem e and artiticeto defraud and to obtain m oney and property by m eansofm aterially
false and fraudulentpretenses,representations,and prom ises,did know ingly transm itand cause to

be transm itted,directly and indirectly,by m eans ofwire com m unications in interstate and foreign
com m erce,certain w ritings,signs,signals,pictures,and sounds,as m ore specifically described
below :
C O UN T

A PPRO X .D ATE

9

June 25,2015

D ESCR IPTIO N O F W IR E C O M M U N ICA TIO N
Electronic m ail from

JA M ES SA BAT IN O

at

jprolima@ sonymusicent.com in M iami,Florida,to a

representative ofCartierU SA in N ew Y ork,N ew Y ork,
in which SA BATIN O identified him self as a
representative of Sony M usic Entertainm ent and
RocN ation and requested w ristw atchesand eyew earfor
use in a m usic video production featuring prom inent
recording artists

10

June 25,2015

Electronic m ail from

JA M E S SABA TIN O

at

jprolima@ sonymusicent.com in M iami,Florida,to a

representative of Tiffany and Com pany in N ew Y ork,
N ew Y ork,in which SA BATIN O identified him selfas
a representative of Sony M usic Entertainm ent and
RocN ation and requested a handbag and a w listw atch
forusein a m usic video production featuring prom inent
recording artists

l1

June 29,20l5

Electronic m ail from

JA M E S SABA TIN O

at

jprolima@ sonymusicent.com in M iami,Florida,to a

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 14 of 30

CO U N T

12

A PPR O X .D A TE

DE SC RIPTIO N O F W IItE CO M M U NIC A TIO N

June29,20l5

representative of Judith Leiber Couture,Ltd. in N ew
Y ork, N ew Y ork, in w hich SA BA TIN O identified
him self as a representative of Sony M usic
Entertainm entand RocN ation and requested a handbag
foruse in a m usicvideo production featuring prom inent
recording artists
Electronic m ail from JAM ES SABATINO at

jprolima@ sonymusicent.com in M iami,Florida,to a

l3

July 8,2015

representative of Judith Leiber Couture, Ltd.in N ew
York, N ew Y ork, in w hich SA BATIN O idcntified
him self as a representative of Sony M usic
Entertainm ent and RocN ation and requested tracking
inform ation for a package containing Judith Leiber
Couture,Ltd.handbags
Electronic m ail from JA M ES SA BATIN O at

jprolima@ sonymusicent.com in M iami,Florida,to a

14

July 8,20l5

representative of Tiffany and Com pany in N ew Y ork,
New Y ork,in which SA BA TIN O identified him selfas
a representative of Sony M usic Entertainm ent and
RocN ation and requested a w ristwatch for use in an
album coverartw ork production featuring a prom inent
recording artist
Electronic m ail from JA M E S SA BA TINO at

jprolima@ sonymusicent.com in Miami,Florida,to a

15

July 13,2015

representative ofCartierU SA in N ew York,N ew York,
in w hich SA BA TIN O identitied him self as a
representative of Sony M usic Entertainm ent and
RocN ation and requested eyewear for use in an album
cover artw ork produd ion featuring a prom inent
recording artist
Electronic m ail from JA M ES SABA TIN O at

jprolima@ sonymusicent.com in M iami,Florida,to a
representative of A udem ars Piguet lnc.in N ew Y ork,
N ew Y ork,in which SA BA TIN O identified him selfas
a representative of Sony M usic Entertainm ent and
RocN ation and requested w ristw atches for use in an
album cover artw ork production featuring a prom inent
recording artist
In violation ofTitle 18,U nited States Code,Sed ions 1343 and 2.

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 15 of 30

CO UN T 16
Conspiracy to C om m it M ailand W ire Fraud

(18U.S.C.j1349)
From on oraboutFebruary 27,2017,through on oraboutApril5,2017,in M iam iD ade County,in the Southern D istrictofFlorida,and elsew here,the defendant,
JAM ES SA BA TIN O ,
a/k/a ddlam esProlim a,s'
a/k/a Rlim m y Prolim ar''
a/k/a çilam es H arvey,''
a/k/a tçluenny Santiago,''
a/lk/a içlim m y G utta,''
a/k/a tEpaulCastellana,''
a/k/a Rsam uelCastro,
a/k/a RA ndrew K ronfeld,''
a/k/a tçpaulM arino,''

did willfully,thatis,with the intentto further the objects ofthe conspiracy,and knowingly
com bine,conspire,confederate,and agree w ith otherpersons know n and unknow n to the A cting
United States Attorney,to com m itthe following offenses:
to know ingly,and with intent to defraud, devise and intend to devise a
schem e and artifice to defraud and to obtain m oney and property by m eans ofm aterially false and

fraudulentpretenses,representations,and prom ises,know ing that the pretenses,representations,
and prom isesw ere false and fraudulentwhen m ade,and forthepurpose ofexecuting such schem e
and artifice,and attem pting to do so,did know ingly cause to be delivered certain m ailm atter by

United ParcelService (UPS)and FederalExpress(FedEx),private and commercialinterstate
carriers,according to the directions thereon,in violation ofTitle l8,United States Code,Section
l341;and
to know ingly,and w ith intent to defraud, devise and intend to devise a
schem e and artifice to defraud and to obtain m oney and property by m eansofm aterially false and
fraudulentpretenses,representations,and prom ises,know ing that the pretenses,representations,
15

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 16 of 30

and prom iseswerefalseand fraudulentwhen made,and forthepurposeofexecuting such scheme
and artifice,did transm itand causeto be transm itted by m eansofw irecom m unication in interstate

com m erce,certain writings,signs,signals,pictures,and sounds,in violation of Title 18,United
StatesCode,Section 1343.
PU RPO SE O F TH E C O N SPIM CY
2.

ltw as the purpose ofthe conspiracy for the defendantand his co-conspirators to

unlawfully elwich themselvesby obtaining and misappropriatingluxury retailitemsandjewelry
from retailstoresandjewelersbymakingmateliallyfalseand fraudulentrepresentations,andby
the concealm entofm aterialfacts,concenAing,am ong otherthings,the identity ofthe defendant
and the intended use ofthe retailitem s.
M A NN ER AN D M EA N S

The naanner and maeans by which the defendant and his co-conspirators sought to

accomplishtheobjectsandpurposeoftheconspiracyincluded,amongothers,thefollowing:
JA M ES SABA TINO w as incarcerated atthe FederalD etention Centerin M iam i,
Florida.

JAM ES

SABA TIN O

created

several e-m ail

addresses, including

pcastellana@ sonr icturesintemational.com ,scastro@ caaworldwide.com ,and an emailaddress
associated with the domain name @umgworldwide.com ,for the purpose of impersonating
employees of recorded m usic com panies, m otion picture production com panies,and a talent
agency.

JA M ES SA BA TIN O ,using several aliases,contacted several luxury retail and

jewelrystoreemployeesandbrandrepresentativesviatelephonecalls,e-mails,andtextmessages.
Duringthose com m unications,SABA TINO pretended to be an em ployeeofvariousentertainm ent

16

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 17 of 30

industrycompanies.SABATINO'Se-mailstoluxuryretailandjewelrystoreemployeesandbrand
representatives som etim es included the entertainm entindustry com panies'logos.
ln som e instances, JA M ES SA BA TINO requested that the luxury retail and

jewelry store employees and blund representatives send retailitems and jewelry to various
locations in the Southern Districtof Florida.ln other instances,SA BA TIN O l-equested thatthe

retailitemsandjewelrybemadeavailableforpick-upbySABATINO'Sco-conspirators.

JAM ESSABATINO claimedthattheretailitemsandjewelerywouldbefeatured
in m usic videos,film productions,and prom otionalm aterialsthatw ere being film ed and produced
in M iam i,Florida.SA BA TIN O claim ed the retailitem swould be returned to the luxury retailand

jewelry stores.In furtherance ofthe fraud scheme,SABATINO signed fraudulentdocuments
including ccrtificates of insurance and letters of responsibility prom ising the return of the retail
item s.

8.

JA M ES SA BA TIN O instructed the luxury store em ployees and brand

representativesto send the item sto co-conspiratorsw ho w ere notincarcerated.
In som e instances,the luxul'y store em ployees and brand representatives shipped
the retail item s via UPS and FedEx.ln other instances,the luxury store em ployees and brand
representativesm ade the retailitem savailable forpick-up by co-conspirators.

l0.

O nce the co-conspirators received the retailitem s,JAM E S SA BA TINO directed

the co-conspiratorsto selltheitemsatpawn shopsandjewelry storesin 5011
.th Florida,Atlanta,
Georgia,and elsew here.
JA M ES SAB ATIN O arranged for air transportation and hotelaccom m odations
forhisco-conspirators.

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 18 of 30

JAM ES SABATINO 'Sco-conspiratorsdeposited a portion ofthe proceeds from
the sale ofthe fraudulently obtained retail item s into SABA TIN O 'S com m issary account atthe
FederalD etention Center in M iam i,Florida.
A l1in violation ofTitle 18,United States Code,Section 1349.
C O U N TS 17-22
M ailFraud

(18U.S.C.j 1341)
From on or aboutFebnlary 27,2017,tluough on oraboutA pril5,2017,in M iam iD ade County,in the SouthenzD istrictofFlorida,and elsewhere,the defendant,
JAM ES SA BA TIN O ,
a/lk/a Rlam es Prolim a,''
a/k/a tilim m y Prolim a,''
a/k/a ççlam es H arvey,''
a/lk/a çiluenny Santiago,''
a/k/a içlim m y G utta,''
alkla EçpaulC astellana,''
a/lk/a içsam uelC astro,
a/k/a ççAndrew K ronfeld,''
a/k/a RpaulM arino,''

did know ingly and with intent to defraud,devise and intend to devise a schem e and artifice to
defraud and to obtain m oney and property by m eans ofm aterially false and fraudulentpretenses,
representations,and prom ises, know ing that the pretenses, representations,and prom ises w ere
false and fraudulent when m ade,and for the purpose of executing such schem e and artifice,and
attem pting to do so,did know ingly cause to be delivered certain m ailm atter by United Parcel

Selwice(UPS)andFederalExpress(FedEx),privateandcommercialinterstatecarriers,according
to the directionsthereon.
PUR PO SE O F TH E SCH EM E AN D A RTIFIC E

Itw asthe purpose ofthe schem e and artifice forthe defendantand hisaccom plices
to unlaw fully emich them selvesby obtaining and m isappropriating retailitem s from luxury stores
18

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 19 of 30

by m aking m aterially false and fraudulent representations,and by the concealm ent of m aterial
fad s,concem ing,am ong otherthings,the identity of the defendantand the intended use ofthe
retailitem s.

TH E SC H EM E AN D AR TIFICE
3.

Paragraphs 3 through 12 of the M anner and M eans sed ion of Count 16 of this

Superseding lnfonnation are re-alleged and incom orated by reference herein as a description of
the schem e and artifice.
U SE O F TH E M A IL S

On or aboutthe dates specified as to each countbelow ,the defendant,for the
purpose of executing and in furtherance of the aforesaid schem e and artifice to defraud and to
obtain m oney and property from others by m eans of m aterially false and fraudulent pretenses,
representations, and prom ises, and attem pting to do so, did know ingly cause to be delivered,
directly and indirectly,by U PS and FedEx,private and com m ercialinterstate carriers,according
to the directions thereon,the item sidentitied below in each count:
CO U N T

A PPR O X .DA TE

l7

February 27,20 17

18

Febnlary 27,2017

19

Febnzary 27,2017

DESC RIPTIO N O F M A ILIN G
O ne parcel containing retail item s m ailed by a
representative of Salvatore Ferragam o U S, via
U PS in N ew York,N ew Y ork,to PaulM arino,in
M iam i,Florida
One parcel containing retail items m ailed by a
representative of Philipp Plein,via FedEx in N ew
York, N ew York, to Paul M arino in M iam i,
Florida
One parcel containing retail item s m ailed by a
representative of Philipp Plein, via FedEx in
Atlanta, Georgia, to Paul M arino in M iam i,
Florida

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 20 of 30

C O U NT

APPR O X .D A TE

D ESC R IPTIO N O F M A ILIN G

20

M arch 15,2017

One parcel containing jewelry mailed by a
representative of ajewelry company located in
Beverly Hills,California,via FedEx to tçH .K .'' in
M iam iBeach,Florida

21

22

M arch30,2017

One parcel containing jewelry mailed by a

M arch 31,2017

gsic),in Miami,Florida
One parcel containing jewelry mailed by a

representative of Lorrain Schw artz Jew elers via
FedEx in N ew Y ork,N ew Y ork,to Paul Castell

representative of Lorrain Schw artz Jew elers via
FedEx in N ew Y ork,N ew Y ork,to PaulCastell

gsicj,inM iami,Florida
ln violation ofTitle 18,United StatesCode,Sections 1341and 2.
C O U NT S 23-29
W ire Fraud

(18U.S.C.j 1343)
From on or aboutFebruary 27,2017,through on oraboutApril5,2017,in M iam i-

Dade County,in the SouthenzD istrictofFlorida,and elsewhere,the defendant,
JA M E S SA BA TIN O ,
a/lk/a Klam es Prolim a,''
a/k/a Rlim m y Prolim a,''
a/lk/a tçlam es H arvey,''
a/k/a éitzenny Santiago,''
a/k/a içlim m y G utta,''
a/k/a RpaulC astellana,''
a/k/a itsam uelC astro,
a/k/a ççA ndrew K ronfeld,''
a/k/a HpaulM arino,''

did knowingly and with intentto defraud,devise and intend to devise a scheme and artifice to
defraud and to obtain m oney and property by m eansofm aterially false and fraudulentpretenses,
representations, and prom ises, knowing that the pretenses,representations, and prom ises w ere

false and fraudulentwhen m ade,and for the purpose of executing such schem e and artifice,did

20

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 21 of 30

transm itand cause to be transm itted by m eans of w ire com m unication in interstate and foreign
com m erce,certain w ritings,signs,signals,pictures,and sounds.
PU R PO SE O F TH E SC H EM E A N D AR TIFICE

ltw asthe purpose ofthe schem e and artifice forthe defendantand his accom plices
to unlaw fully emich them selvesby obtaining and m isappropriating retailitem sfrom luxury stores
by m aking m atelially false and fraudulent representations,and by the concealm ent of m aterial
facts,concerning,am ong other things,the identity ofthe defendant and the intended use of the
retailitem s.
TH E SCH EM E A N D AR TIFICE
3.

Paragraphs 3 through 12 of the M anner and M eans section of Count 16 of this

Superseding lnforfnation are re-alleged and incorporated by reference herein as a description of
the schem e and artifice.

USE O F TH E W IRE S
4.

On oraboutthe dates specified asto each countbelow ,in the Southern Districtof

Florida,and elsewhere,the defendant, for the purpose of executing,and in furtherance of,the
aforesaid schem e and artificeto defraud and to obtain m oney and property by m eansofm aterially
false and fraudulentpretenses,representations,and prom ises,did know ingly transm itand cause to
be transm itted,directly and indirectly,by m eansofw ire com m unicationsin interstate and foreign
com m erce,certain writings,signs,signals,pictures,and sounds,as m ore specifically described
below :

21

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 22 of 30

C O U NT

A PPR O X .D A TE

D ESCR IPTIO N O F W IR E
CO M M U N ICA TIO N

23

February 27,2017

Electronic m ail from JA M ES SABA TIN O at

pmarino@ universallmtlsicinternational.com

in

M iam i, Florida, to a representative of Salvatore
Ferragam o U S, in Beverly H ills, California, in
w hich SA BA TIN O identified him self as a
representative ofU niversalM usic lntenzationaland
requested a tracking num ber for a shipm ent of
m erchandise and provided shipping address details
24

Febrttary 27,2017

Electronic m ail from JA M ES SABA TIN O at

pmadno@ universalmusicintemational.com

in

M iam i, Florida, to a representative of Salvatore
Ferragam o U S, in Beverly H ills, Califonzia, in
w hich SA BATIN O confirm ed receiptofa tracking
num berfora shipm entofm erchandise
25

M arch 7,2017

Electronic m ail from JA M ES SABA TIN O at

scastro@ caaworldwide.com inM iami,Florida,toa

representative ofAkris in N ew Y ork,N ew Y ork,in
w hich SA BA TIN O requested handbags for use in
a m usic video production featuring a prom inent
recording artist
26

M arch l3,2017

Electronic m ail from JA M E S SA BA TIN O at

scastro@ caaworldwide.com inM iami,Flolida,toa
representative of a jewelry company located in
Beverly H ills, California, in which SA BA TIN O
identified him selfasa representative ofa prom inent
actor and recording artistand requested a diam ond
braceletforuse in a m usic video production
27

M arch 30,2017

Electronic m ail from JA M E S SA BATIN O at

pcastellana@ sonr ircturesintemational.com

in

M iam i, Florida, to a representative of Lonuine
Schw artz Jew elers in N ew York, N ew York, in
w hich SABA TIN O identified him self as a
representative of a prom inent actor and recording
artist and requested earrings, a necklace, and a
braceletforuse in a m usic video production

22

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 23 of 30

C O UN T

A PPR O X .DA TE

D ESCR IPTIO N O F W IR E
C O M M U NIC A TIO N

28

Aprill,2017

Telephone call betw een JA M ES SA BA TIN O in
M iam i, Florida, and an em ployee of Lorrain
Schw artz Jewelers in N ew Y ork, N ew Y ork, in
w hich SA BA TIN O identified him self as a
representative ofaprom inentrecording artist

29

April2,2017

Telephone call betw een JA M ES SA BATIN O in
M iam i, Florida, and an em ployee of Lorrain
Schw artz Jewelers in N ew Y ork, N ew York, in
w hich SABA TIN O discussed certificates of
insurance for a loan of Lorrain Schw artz Jew elers

jewelry
ln violation ofTitle 18,United StatesCode,Sections 1343 and 2.
FO RFEITU R E

(18U.S.C.jj981(a)(1)(C),1963)
The allegations ofthis Superseding Infonnation arerealleged and by thisreference
are fully incorporated herein forthe purpose ofalleging forfeiture to the United StatesofA m erica
ofcertain property in which the defendant,JA M E S SA BA TIN O ,has an interest.

Upon conviction of a violation of Title 18,U nited States Code, Sections 1341,
1343,and/or 1349,as alleged in this lnfonnation,the defendantshallforfeitto the United States
ofAm erica any property,realorpersonal,which constitutesorisderived from proceedstraceable

tosuchviolations,pursuanttoTitle 18,UnitedStatesCode,Section 98l(a)(1)(C).
Upon conviction ofa violation of Title 18,U nited States Code,Section 1962,as
alleged in this lnform ation,the defendant shallforfeit to the U nited States, irrespective of any

provision ofStatelaw,(1)any interestacquiredormaintained in violation ofSection 1962,
.(2)
any interestin,security of,claim against,orproperty or contractualrightofany kind affording a
source of influence over,any enterprise w hich the person has established,operated,controlled,

conducted orparticipated in the conductof,in violation ofSection 1962,
.and (3)any property
23

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 24 of 30

constituting,or derived from ,any proceeds obtained,directly or indirectly,from racketeering
activity in violation of Section 1962, al1 pursuant to Title 18, U nited States Code, Section

1963(a)(1)-(3).
Thepropertysubjecttoforfeitureincludes,butisnotlimitedto:
Three(3)JudithLeiberCoutureclutchbags,seizedonoraboutAugustl2,
2015.
,

Two(2)AudemarsPiguetwatches,seizedonoraboutAugust12,2015'
,
iii. Eleven(11)Tiffany& Co.braceletsandwatches,seizedonoraboutAugust
12,2015,
'

Thirteen(13)JimmyChoohandbagsand shoes,seized onoraboutAugust
12,2015,
*

Three(3)AlexanderW angtotebags,seizedonoraboutAugust12,2015.
,
One (1)Judith LeiberCoutureclutchbag,seized on oraboutAugust19,
2015,
'

vii. Ten (10)Jimmy Choohandbagsandshoes,seized onoraboutAugust19,
2015,
.

viii. Approxim ately $32,939 in U.S.currency,seized on or aboutM arch 27,
2017;

ix. Six(6)piecesofmiscellaneousjewelry,seized onoraboutApril19,2017,
including:

a. One(1)StephenRussell,antiquesilverandwhitegold,Riviere-style
necklace w ith European and old-m ine cutdiam onds;

b. One (1) Stephen Russell, platinum Art Deco bracelet with
diam onds'
,

One(1)M artinKatz,rosegold,handmadenecklacewithdiamonds;
d. One(1)M artinKatz,whitegold,three-chaindiamondnecklace;
e. One(1)pairofStephen Russell,whitegoldchandelier,halo-style
diam ond earrings;and

One (1)pairofStephen Russell,white gold chandelierdiamond
earrings;
24

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 25 of 30

Five(5)piecesofmiscellaneousjewelry,seizedonoraboutM ay l1,2017,
including:

a. One (1) Lonuine Schwartz,white gold,s-petal floralring with
diam onds,
'

b. One(1)LorraineSchwartz,whitegold,8-petalringwithdiamonds;
One (1) Lorraine Schwartz,white gold, dome-style ring with
diamonds;

One(1)LorraineSchwartz,whitegold,diamond-encnlstedring;and

e. One(1)LonuineSchwartz,whitegold,diamond-encrustedring;
Two(2)piecesofmiscellaneousjewelry,seizedonoraboutM ay18,2017,
including:

a. One(l)yellow gold,lillkchainnecklace;and
b. One(l)whitegold,T-shaperingwithdiamonds;

One(1)Akrissaddle-coloredhandbag,seizedonoraboutMay l8,2017.
,
xiii. Four (4) $500 W estern Union money orders that total$2,000 in
currency in value,seized on oraboutM ay 18,20l7,
'

Four(4)miscellaneousitems,seized onoraboutJuly6,2017,including:
One(1)LorraineSchwartz,silver-coloredlingwithstones'
,
One(l)Akrisblack andwhitepurse;

One(1)Philipp Pleinwhite-coloredpurse;
d. One(1)SalvatoreFerragamoblack-coloredpursewithgold-colored
zipper'
,and

One(1)Akrishandbag,seizedonoraboutJuly 12,2017.
lf any of the property described above,as a result of any act or om ission of the
defendant:
a.

cannotbe located upon the exercise ofdue diligence;
hasbeen transferred orsold to,ordeposited w ith,a third party;

hasbeenplacedbeyondthejurisdictionofthecourt;
25

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 26 of 30

d.

hasbeen substantially dim inished in value;or
hasbeen com m ingled with otherproperty w hich calm otbe divided
w ithoutdifficulty,

the United StatesofAm erica shallbe entitled to forfeiture ofsubstitute property pursuantto Title

21,UnitedStatesCode,Section853(p),asincop oratedbyTitle28,United StatesCode,Section
2461(c),andTitle 18,United StatesCode,Section 1963(m).

Al1pursuanttoTitle18,UnitedStatesCode,Section981(a)(1)(C),asincorporatedbyTitle
28,UnitedStatesCode,Section2461(c),Titlel8,UnitedStatesCode,Section 1962(a)(1),andthe
procedures setforth in Title 21,United States Code,Section 853 and Title 18,United States Code,
Section 1963.

!

D V

BEN JAM IN G .G REEN B ERG
A CTIN G UN ITED STA TES A TTO RN EY

CHR ISTO PHER B.BROW N E
A SSISTAN T IJN ITED STA TES ATTO RN EY

26

UNITED STATES DISTRICT EOURT

Case 1:16-cr-20519-JAL Document
214 Entered
onFLFLSD
SO UTHERN
DISTRICT OF
O RIDA Docket 08/28/2017 Page 27 of 30
UNITED STATES OFAM ERfCA

CASE NO.

VS.

CERTIFICATE OFTRIALAU ORNEY*

Jam esSabatino,
Defendant.

/

M iam i
FTL
-

Yes

New Defendantts)

CourtDivision:(SelectOne)
X

SupersedingCaselnformation;16-20519-CR-tENARD(s)

Key W est
W PB

Num berofNew Defendants
Totalnum berofcounts

No

29

FTP

Idohereby certifythat:
1have carefull
y considered the allegations ofthe indictment,the number ofdefendants,the numberof

probablewitnessesandthe Iegalcomplexitiesofthe lndictment/lnformation attached hereto.
Iam aware thattheinformation supplied on thisstatementw illbe relied upon bytheJudgesofthisCourtin
setting theircalendarsand scheduling crim inaltrialsunderthe mandate ofthe SpeedyTrialAct,Title 28 U.S.C.
Section 3161.

lnterpreter: (YesorNo)
Listlanguageand/ordialect

No

This case willtake.Qdaysforthepartiestotry.

Please checkappropriate categoryand type ofoffenseIistedbelow:
(Checkonlyone)

(Checkonlyone)

O to 5 days
6to10days
llto 20 days
21to 60 days
61daysand over

6

PIea

Petty
M inor
M isdem .

Felony

N

Hasthiscasebeenpreviousl
yfiledinthi
sDistrictCourt? (YesorNo)

lfyes:
Judge:Joan A . Lenard

Yes

C3Se NO. 16-20519-LENARD

(Attachcopyofdispositiveorder)
Hasacomplaintbeenfiledinthismatter?

(YesorNo)

Yes

Ifyes:
M agistrate Case No.
Related M iscellaneous num bers:

Defendantts)infederalcustodyasof
Defendantls)instatecustodyasof

10 24 14

Rule 20 from the

Isthisapotentialdeathpenal
tycase?(YesorNo)

Dlstricto

No

Doesthis case originate from a matterpending in the Northern Region ofthe U.S.Attorney's Office priorto
October14,2003?
Yes
X
No
8.

Does this case originate from a matter pending in the CentralRegion ofthe U.5.Attorney'
s Office prior to
Septem ber1,2007?
Yes
X
No

1

IS OPHER B.BROW NE
ASSISTANT UNITED STATES ATTORNEY
CourtID No.91337

*penaltySheetls)attached

REV4/8/08

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 28 of 30

UNITED STATES DISTRICT CO URT
SO UT H ER N DISTR IC T O F FLO R IDA
PEN A LTY SH EET

D efendant's N am e:JA M ES SA BA TINO .a/k/a ddlam es Prolim a.''a/k/a dilim m v Prolim a.''
alkla O am e:Harven ''alkla dilwenny Santiato.''alv a Sslim m y Guttaq''a/k/a iépaul
C astellana.''a/k/a ddsam uelC astro.''a/k/a aA ndrew K ronfeld.''a/k/a fipaulM arinoq''
-

C ase N o:
Count#:1

RacketeerInfluenced and CorruptOrcanizations

Title 18sUnited StatesCodeeSection l96240)

*M ax.Penalty:Twenty (20)years'imprisonment
Count#:2
Conspiracy to Com m itM ailand W ire Fraud
Title 18.United StatesCode,Section 1349

*M ax.Penall :TFçpty(20)ye/rs'imprisppment
Counts#:3-8

M ailFraud
Title 18.United StatesCode.Section 1341

*M ax.Penalty:Twenty (20)years'imprisonmentastoeachcount
Counts #:9-15
W ire Fraud

Title 18,United StatesCode.Section 1343

*M > .Pçpalty:Twepty (20)years'imprijpnmeptastoçachcpunt
*R efersonly to possible term ofincarceration,doesnotinclude possible fines,restitution,
specialassessm ents,parole term s,or forfeitures that m ay be applicable.

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 29 of 30

Count#:16

Conspiracyto Comm itM ailand W ireFraud
Title 18.U nited StatesCode,Section 1349

*M ax.Penalty:Twenty(20)years'imprisonment
Counts#:23-29

W ireFraud
Title 18,United StatesCode,Section 1343

*M ax.Penalty:Twenty (20)years'imprisonmentastoeachcount

*R efersonly to possibleterm ofincarceration,does notinclude possible fines,restitution,
specialassessm ents,paroleterm s,or forfeitures that m ay be applicable.

Case 1:16-cr-20519-JAL Document 214 Entered on FLSD Docket 08/28/2017 Page 30 of 30

AO 455(Rev 01/09)WaiverofanIndi
c%ent
7..
-1 .

'---

...-- -- -..- -

U NITED STATES D ISTRICT COURT
forthe
Sotlthern DistrictofFlorida
UnitedStatesofAm erica

CaseNo. 16-20519-CR-M L

V.

JAM ES SABATINO ,
De#ndant
W AIVER O F AN IND ICTM ENT

IunderstandthatIhavebeen accused ofoneormoreoffensespunishableby imprisomnentformorethanone
year. Iwasadvised inopencourtofmy rightsandthe natureoftheproposed chargesagainstme.
Aherreceiving thisadvice,lwaivemy rightto prosecution by indictmentandconsentto prosecution by
information.

Date:

08/14/2017
----.
-

&%

.

efendant'
sâ'
fgnt
zn/
re

/

/

Slknattlreofdefendant%'attorney

JOSEPH S,NOSENBAUMPrintednameofdefendant'
sattorney

Jht/ge'
sprintednameandt'
tlle

-.

APPENDIX C

Case 1:16-cr-20519-JAL Document 231 Entered on FLSD Docket 09/01/2017 Page 1 of 11

U N ITED STATES DISTRICT C OU RT
SOU TH ERN DISTRICT OF FLO RD A
C ase N o.16-20519-CR-JAL
U N ITED STA TES OF AM ER ICA
VS.

JAM ES SABATW O,
D efendant.

STIPULATED FA CTUAL PROFFER
1. The D efendant,JAM ES SM ATW O ,agreesand understandsthatin the eventthe
D efendantdoesnotentera guilty plea underthe term soutlined in the stipulated letter of
underStanding dated A ugust8,20171, in the above-captioned case:
a. The D efendanthereby w aives any protection afforded by Section IB 1.8 ofthe

SentencingGuidelines,Rule 1149 oftheFederalRulesofCriminalProcedure,
and Rule 410 ofthe FederalRules ofEvidence;
Any statem ents m ade by the D efendant as part of the plea discussions, any
debriefings orinterview s,orin thisagreem ent,w hetherm ade priorto orafterthe
execution ofthis factualproffer,w illbe adm issible againstthe Defendantw ithout
any lim itation in any civilorcrim inalproceeding broughtby the governm ent;and
c. The D efendant has adopted the entire factual proffer set forth herein as the
D efendant's ow n sworn statem ent,and the D efendanthas stipulated to the

adm issibility ofthatstatem entin any casebroughtby the U nited States.

1Itisunderstoodby bothpartiesthatifthetermsspecitied intheletterofunderstanding are notoffered tothe
DefendantinaformalPleaA greem entthen thisFactualProfferisnulland void.

'

Page 1 of11

Case 1:16-cr-20519-JAL Document 231 Entered on FLSD Docket 09/01/2017 Page 2 of 11

2. The D efendantstipulates to and agrees notto contestthe follow ing facts,and stipulates

thatsuchfacts,inaccordancewithRule11(b)(3)oftheFederalRulesofCriminal
Procedure,w ould provide a sufficientfactui basisforthe D efendant'spleasofguilty to
the pending charges:

ENTERPRISE

AtvarioustimesrelevanttothisIndictmentJAM ESSABATW O (çsDefendanf'),other
co-conspirators setforth below ,and othersknown and unknow n were m em bersof a

prison-basedcriminalorganization(hereinafterthe ttEnterprise'').Someofthemembers
and associates ofthe Enterprise w ere associated w ith the Gnm bino O rganized Crim e

FamilyofdtaCosaNostra''($tCN'').TheEnterprise,itsmembers,anditsassociates
engaged in acts ofw ire and m ailfraud,interstate trafficking ofstolen property,

obstructionofjustice,conspiracytomurder,andothercriminalactivitiesandoperatedin
the Southern DistrictofFlorida,Southern DistrictofN ew Y ork,and N orthern D istrictof
Georgia.
The Enterprise,including itsleadership,m em bership,and associates,constituted an

enterpriseasdefinedin 18U.S.C.j 1961(4),thatisagroupofindividualsassociatedin
fact. The Enterprise constituted an ongoing organization w hose m em bers functioned as a

continuingunitforapuposeofachievingtheobjectivesoftheEnteprise.This
Entep rise w as engaged in,and its activitiesaffected interstate and foreign com m erce.
5. JA M ES SA BATW O and the otherm em bers:

a. Agreed to facilitate a schem e thatincluded the operation and m anagem entofthe
Enterprise by SA BA TW O .D espite hisincarceration,SA BATW O rem ained the
sole organizerand leaderofthe Entep rise;
Page2 of11

Case 1:16-cr-20519-JAL Document 231 Entered on FLSD Docket 09/01/2017 Page 3 of 11

b. Conducted regularm eetingsin person,telephonically,and by any otherm eansof
com m unication atw hich they discussed,planned,and othem ise engaged in
crim inalactivity,including,fraud,interstate trafficlcing of stolen property,

introductionofcöntrabandintofederalprisons,bribery,obstructionofjustice,
w itnessintim idation,and m urder'
,
Engaged in a system of ddpenalties''in w hich m em bers ofthe Enterprise conspired
to m urder,physically harm arld threaten those m em bersofthe Enterprise w ho
questioned the leadership's authority,cooperated with 1aw enforcem ent,orposed
a threatto the leaderorpurpose ofthe Enterprise;
d. Recruited inm ates in prison,causing them to recruitoutside individualsto com m it
crim es on behalfofthe Enterprise;
e. Com m itted illegalacts such asconspiracy to m urderand threaten violence against

individualswhoposedathreattotheEntepriseorjeopardizedoperations,
including w itnessesto the illegalactivitiesofthe Enterprise;
f. Traveled to South Florida from New York,N ew Y ork as wellas from South
Florida to A tlanta,G eorgia to furtherthe goalsoftheEnterprise;
g. The Enterprise m aintained a fund for al1expensesofthe Enterpdse such asbribes
ofprison oftk ials,purchase ofcellulartelephonesto facilitate crim es,false
identification docum ents,travelexpenses,and m oney forbailbond and legalfees
forincarcerated m em bers ofthe Entep rise;

h. The Defendantgave apercentage ofal1fraud proceeds generated by the
Entep rise to an associate ofthe G nm bino O rganized Crim e Fnm ily ofLCN ;and
The Defendantparticipated in the follow ing acts,nm ong others,in furtherance of

theEnterpriseanditscriminalobjectives.
Page3 of11

Case 1:16-cr-20519-JAL Document 231 Entered on FLSD Docket 09/01/2017 Page 4 of 11

2015 CRIY N-AL CONDUCT
6. From on orabout,October24,2014,tllrough the presentthe D efendantw as incarcerated

intheFederalDetention CenterinM iami,Florida(STDC M iarnP'l.TheDefendant,
JAM ES SAB ATm O ,is known by 1aw enforcem entto be an associate ofthe G am bino

Organized CrimeFam ily ofLCN .
Soon afterthe D efendant's arrivalatFD C M iam i,hebegan to recnlitotherinm ates in an
attem ptto obtain a cellulartelephone to com m itcrim es. The D efendantw as successful

inobtainingaSnmsungcellulartelephonethroughafederalcon-ectionalofficer(dçofficer
# 1::)
8. U sing the contraband cellular telephone, the D efendant created several e-m ail

addresses,includingjprolima@sonymusicent.com andlsantiago@sonymusicent.com,for
the purpose ofim personating em ployees ofSony M usic Entertainm ent,a recorded m usic
com pany.

9. The D efendant,using the alias tdlam esProlim a,''contacted severalluxury store
em ployees and brand representativesvia telephone calls,e-m ails,and textm essages.
D uring the course ofthose wire com m unications,m any ofw lzich were transm itted in
interstate com m erce,the D efendantpretended to be an em ployee ofSony M usic
Entertainm entand RocN ation,a recorded m usic com pany founded by a prom inent
recording artist.Som e ofthe D efendant'se-m ails to luxury store em ployees and brand
representatives included Sony M usic Entertainm entand RocN ation logos.
10.The D efendantrequested thatthe luxury store em ployeesand brand representatives send

retailitemssuch ashandbags,wristwatches,apparel,andjewelrytovadouslocationsin
the Southern DistrictofFlorida.
Page 4 of11

Case 1:16-cr-20519-JAL Document 231 Entered on FLSD Docket 09/01/2017 Page 5 of 11

11.The D efendantclaim ed thatthe retailitem sw ould be featured in m usic videosand
prom otionalm aterialsthatw ere being film ed and produced in M iam i,Florida.The
D efendantclaim ed the retailitem sw ould be returned to theluxury stores,and signed
lettersofresponsibility prom ising the return ofthe retailitem s.
12.The Defendantdirected inm ates atFD C M iam ito recruitoutside personsto com m it

crimestofurthertheobjectivesoftheEnterprise.
13. The D efendantinstructed the luxury store em ployees and brand representatives to send
the item s to co-conspiratorsV alerie K ay H unt,D enise Siksha Lew is,and othercoconspirators who w ere notincarcerated.The D efendantand otherincarcerated coconspirators recruited H untand Lew is into the schem e.
14.In som e instances,the luxury store em ployees and brand representatives sllipped the
retailitem sto H untand Lew isvia UPS and FedEx.In otherinstances,the luxury store
em ployees and brand representativesm ade the retailitem s available forpick-up by Hunt,
Lew is,and otherco-conspirators.
15.The D efendant,using the alias tElam es Prolim a,'' arranged for lim ousine transportation
and hotelaccom m odationsforH untand otherco-conspirators.
16.Once Huntand Lewisreceived the retailitem s,the D efendantand D uquen directed H unt
and Lew is to sellthe item satpawn shops in the Southern D istrictofFlorida and
elsew here.
17.H untand Lew is deposited a portion ofthe proceedsfrom the sale ofthe fraudulently

obtained retailitem sinto the com m issary accounts ofthe D efendantand D uquen,during
the tim e period in w hich both theD efendantand D uquen w ere incarcerated atthe Federal
D etention Centerin M iam i,Florida.

Page5 of11

Case 1:16-cr-20519-JAL Document 231 Entered on FLSD Docket 09/01/2017 Page 6 of 11

18.D uring the course ofthe fraud schem e,the D efendantdirected fraudulently obtained
retailitem sto be delivered to unindicted co-conspirators,including an associate ofthe
G am bino Organized Crim e Fnm ily ofLCN .
19.Pursuantto the Defendant's directives,a m em berofthe G nm bino Organized Crim e
Fam ily ofLCN repeatedly pressured a w itnessto pay a debtow ed to the Enterprise. The
debtw as assigned to thisw itnessafterhiseffortsto sellhigh-value stolen property w as
foiled upon seizure ofthe property by 1aw enforcem ent.

20.OnJuly 18,2015,BureauofPrisons(ç%OP'')personnelsearchedtheDefendant'scellat
FD C M inm iand discovered a Snm sung brand cellulartelephone and accom panying
charging device. A review ofthe phone conducted pursuantto a federalsearch w arrant
revealed evidence thatthe D efendantextensively com m unicated with an associate ofthe
G am bino Organized Crim e Fam ily ofthe LCN and other co-conspirators.
21.On July 27,2015,while in FD C M iam ithe D efendantcom m unicated during a visitw ith
an associate ofthe G nm bino Organized Crim e Fam ily ofLCN .
22.U pon the Defendant'srelease from SHU back to generalpopulation,the D efendant
directed O fficer# 1to access a secure B OP com putersystem to obtain the contact
inform ation forfam ily m em bersof a co-conspirator.
23.ln early 2016,Officer# 1 alerted the D efendantthrough his sourcesofarlongoing law
enforcem entinvestigation ofthe Enterprise'sconduct. The D efendantim m ediately
com m unicated thisinform ation to non-incarcerated co-conspirators.

24.A fterthe D efendantw as charged in connection with this case,the D efendantcontacted a

fellow inmate(hereinafter,çilnmate#1'3,whowasscheduledtobereleasedfrom Federal
custody in oraround A ugust2016.

Page 6 of11

Case 1:16-cr-20519-JAL Document 231 Entered on FLSD Docket 09/01/2017 Page 7 of 11

25.On oraboutAugust2,2016,theDefendantdirected Inm ate#1to deliveramessageto
Co-conspirator#1.In thatm essage,w hich w as partially com m unicated in coded writing,
the D efendantdirected Co-conspirator#1to harm orldllco-conspiratorV alerie H unt
and a fnm ily m em berofco-conspiratorJorge D uquen.
26.Thereafter,lnm ate #1 disclosed to 1aw enforcem entthe D efendant's attem pts to have the
above-listed personshr m ed orldlled.
27.The D efendantlenrned ofInm ate#1'sdisclosure to 1aw enforcem ent,and subsequently
m ade contactwith Inm ate #1 in orderto intim idate Inm ate #1 and preventlnm ate #1
from testifying againstthe D efendant.

2017 CRIM INAL CONDUCT
28.ln oraround February 2017,the D efendantrem ained incarcerated atFD C M inm iw hile
aw aiting trialon chargesstem m ing from the above-described fraud-by-im personation
schem e.A tFDC M inm i,the D efendantapproached anotherB OP correctionaloftk er

(Gtofficer#2,')andaskedthatofficertosupplytheDefendantwithacellulartelephone.
O fficer# 2 supplied the Defendantwith severalcellular telephones,including four
Apple-brand iphones.
29.ln addition to supplying the D efendantw ith the cellulartelephones,O ftk er# 2 w as
recruited by the D efendantto becom e a m em ber ofthe Enterprise.W lzile w orking under
the D efendant'sdirection,O fficer# 2 com m itted variouscrim esin furtherance ofthe

Enteprise'sobjectives.
30.Betw een approxim ately M arch 13,2017,and April5,2017,the D efendant,using the
aliasesPaulCastellana,Sam uelCastro,and A ndrew Kronfeld,contacted oversix luxury

jewelrycompaniesandhigh-enddesignerhandbagandshoecompanies.TheDefendant
Page 7 of11

Case 1:16-cr-20519-JAL Document 231 Entered on FLSD Docket 09/01/2017 Page 8 of 11

utilized the above-referenced contraband cellulartelephone to create the follow ing em ail
addresses.
'pcastellr a@ sonypicturesinteo ational.com ,scastro@ caaworldwide.com , and
an em ail address associated with the dom ain nam e@ um gworldw ide.com and
@ canm usic.com .The D efendantused these e-m ailaddresses to com m unicate w ith the

victim jewelrycompanies.TheDefendantalsocommunicatedwithvictimsbytelephone,
including voice calls and textm essages.M ostofthe D efendant's com m unicationsw ith

thevictim jewelerstraveledininterstatecommerce.
31.During the course ofthese com m unications,theD efendantpretended to be an em ployee

and/orrepresentativeofSonyM usicEntertainmentCtSM E'');SonyPicturesInternational
C$SPI'')'CreativeArtistsAgency(dçCAA'')'andUniversalM usicGroup($çUM G'').The

Defendant,usingtheabove-referencedaliases,requestedthatvadousluxuryjewelryand
otherdesigneritem s be loaned to the D efendant,so thatthese item scould be used as
propsin video productionsfeaturing prom inentrecording artists and othercelebrities.
32.ln reliance on the D efendant'sfalse representations,and atthe D efendant's direction,the

luxuryjewelrycompaniesshippedjewelrytotheDefendant'sco-conspirators,including
Co-Conspirator#1,inM iami,Flodda,andelsewhere.Thejewelrywasneverreturnedto
thevictim companies.Inatleasttwoinstances,jewelrywaspickedupfrom aluxury
jewelrycompanyinNew York City,New York,by theDefendant'sco-conspiratorsarld
transportedtootherco-conspiratorsinSouthFlorida.Thatjewelrywasneverreturned.
TheDefendant's2017schemeresultedinthetheftofmillionsofdollarsinjewelry.
33.The D efendantalso recruited Oftk er# 2'sw ife,and appointed herto be the Enterprise's
treasurer. The D efendantfurtherdirected Officer# 2'sw ife to oversee >ny expenses
incun'
ed by the Enterprise.

Page 8 of11

Case 1:16-cr-20519-JAL Document 231 Entered on FLSD Docket 09/01/2017 Page 9 of 11

34.The D efendant,using the contraband cellulartelephones,directed co-conspirators,

includingCo-conspirator#1,tore-sellthestolenjewelrytocertainjewelerslocatedin
South Florida,Atlanta,G eorgia,and elsewhere.TheD efendantcom m unicated
extensively with co-conspirators,including Co-c onspirator#1,aboutthe fraud schem e.
35.The Defendantdirected Officer# 2 to take two high value necklaces from South Florida
to A tlanta,G eorgia And to m eetw ith Co-conspirator# 1. A dditionally,the D efendant
directed O fficer# 2 to collecta large sum ofm oney in possession ofCo-conspirator# 1
and bring itback to South Florida by using hislaw enforcem entcredentialsto avoid
detection ofthe currency.
36.The D efendantdirected Co-conspirator# 1 to pick up Oftk er# 2 atthe A tlanta airport
and transporthim to ahotelin A tlanta,Georgia,w hich the Enterprise w asusing asits
A tlanta base ofoperations. The Defendantobtained a num berof suites using a fraudulent
accountpurportedly associated w ith Sony Pictures Entertainm ent.A num berofm em bers
and associates operated from the hotelsuites.

37.On oraboutApril4,2017,1781agentsin M inm ireceived inform ation from one ofthe

victims,LorraineSchwartzJewelers(GdLSJ''),ajewelerlocatedinNew YorkCity,New
York.LSJwasdefraudedbytheDefendantofapproximately$700,000injewelry.
A ccording to LSJ em ployees,on or aboutM arch 30,2017,a purported SPlexecutive

namedPaulCastellanacontactedLSJandsuccessfullysecuredloansofjewelryfora
purported m usic video shootin M inm i,Florida.Castellana em ailed LSJ using

pcastellana@sonypicturesinternational.com.OnoraboutM arch31,2017,jewelrywas
shippedbyLSJviaFedEx toaFourSeasonsHotelinMinmi,Florida.TheLSJjewelry
w asneverreturned to LSJ.AfterLSJbegan to suspectthe legitim acy ofPaulCastellana's
request,LSJ'S insurer directed LSJ to record telephone calls with Castellana in an effort
Page 9 of11

Case 1:16-cr-20519-JAL Document 231 Entered on FLSD Docket 09/01/2017 Page 10 of 11

to protectthe com pany againstfurtherloss and assist1aw enforcem ent.LSJ em ployees
recorded Castellana'svoice on severaltelephone calls.Law enforcem entreceived the
audio files from LSJ and listened to the recordingsofCastellana'svoice.C astellana's
voice,asrecorded by LSJ,wasthe D efendant's.
38.On or aboutApril5,2017,the D efendantsupelwised Co-conspirator# 1 and Co-

Conspirator# 2,w ho w ere in the processofreceiving severalm illion dollars'w orth of

fraudulentlyobtainedjewelryintwodifferentlocations.Thecombinedvalueofthe
jewelrywasapproximately$3million dollars.
39.TheDefendantdirectedCo-conspirator# 1todeliverbothpackagestoajewelerinFort
Lauderdale,Florida.W hileatthejeweler'sstore,Co-conspirator# 1contactedthe
D efendantoverthe phone so thatthe D efendantcould negotiate the price directly with

thejeweler.TheDefendantandthejeweleragreedonthepriceof$800,000.00incash
forboth packages w hich w asto be paid im m ediately to Co-conspirator# 1.
40.O n oraboutA pril5,2017,while the Defendantw as stillon the phone w ith C oConspirator# 1,B OP personnelsearched the D efendant's cellatFD C M iam i. Upon
entering the cell,BO P personnelobserved the D efendanton the phone. A furthersearch
ofthe D efendant's cellrevealed three m ore phones,fora totaloffourApple-brand
iphones and accom panying charging devices.A tthe tim e FD C M inm istaffseized the
iphones,the D efendantw asalone in hiscell.A review ofthe iphones,conducted
pursuantto a Federalsearch w arrant,revealed extensive evidence ofthe D efendant's

involvementin the2017 fraud scheme and confirm ed thatthe iphoneshad beenprovided
to the Defendantby a Bureau ofPrisons corrections officer.

41.On A pril20,2017,FD C M iam ipersonnelsearched the Defendant'scelland discovered
severalnotes written in the Defendant'shandwriting.One ofthose notesw as addressed to
Page 10 of11

Case
Document 231 Entered on FLSD Docket 09/01/2017 Page 11 of 11
@ 1:16-cr-20519-JAL

thecorrectionaloftk erwho provided theDefendantwith contraband cellulartelephones
in 2017.Illthatnote,the D efendantdirected the correctionaloftk erto take certain steps
to concealevidence ofthe fraud,including an explicitcom m and to m ove fraud proceeds
outofthe officer'shouse.The D efendantstated thathe w asd'trying to clip''a governm ent
witness's fnm ily,and furtherdirected the officerto Sstake care of'govelmm entwitnesses
on the D efendant'sbehalf.
BEN JAM EC G .G REENBERG
A CT
U N ITED STA TES A TTORN EY

Date:% /f
/> ?7D ate:

/

By:
CH RISTOPH ER BR OW
A SSIST
U .S A T
By:

JOSEP S.

COUNSEL

Ilate:@ $ Xet-1

Y

NBAUM ,ESQ.

'fHEDEFENDANT

By:
.
J E A BATINO
D EF
AN T

Page 11 of11

APPENDIX D

Case 1:16-cr-20519-JAL Document 286 Entered on FLSD Docket 11/20/2017 Page 1 of 10

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-20519-CR-LENARD
UNITED STATES OF AMERICA,
v.
JAMES SABATINO,
Defendant.
___________________________________/
ORDER GRANTING GOVERNMENT’S AGREED-UPON MOTION
REQUESTING IMPOSITION OF COMMUNICATION RESTRICTIONS
PURSUANT TO 18 U.S.C. § 3582(d) AND IMPOSING RESTRICTIONS ON
DEFENDANT’S COMMUNICATIONS PURSUANT TO 18 U.S.C. § 3582(d)
THIS CAUSE is before the Court on the Government’s Agreed-Upon Motion
Requesting Imposition of Communication Restrictions Pursuant to 18 U.S.C. § 3582(d)
(“Motion,” D.E. 269), filed November 13, 2017. 1 The Government filed this Motion in
accordance with the terms of the Plea Agreement that Defendant James Sabatino
(“Defendant”) and the Government executed on September 1, 2017 (“Plea Agreement,”
D.E. 230). In the Plea Agreement, the parties expressly agreed that the Government
would ask the Court to include, as part of Defendant’s sentence, an order restricting his
communications while incarcerated, pursuant to 18 U.S.C. § 3582(d). In particular, the
parties agreed that the Government would request imposition of the following conditions
of confinement: (a) Defendant should be confined so that he has no contact with other
prisoners; and (b) Defendant’s communications should be restricted from all persons
The Court granted the Motion at the sentencing hearing on November 13, 2017.
(See D.E. 271.) This Order adopts and supplements that oral ruling.
1

Case 1:16-cr-20519-JAL Document 286 Entered on FLSD Docket 11/20/2017 Page 2 of 10

inside and outside of prison with the exception of his step-mother, his lawyer, and an
employee of his lawyer. The parties also agreed that the Government would request that
these restrictions remain in place until Defendant has demonstrated his communications
no longer posed a threat, and that this Court retain jurisdiction to consider any
applications to modify the aforementioned restrictions. (See Motion at 2 ¶ 3; Plea
Agreement at 4 ¶ 7(d).)
Having considered the Government’s Agreed-Upon Motion, the Superseding
Information (“SI,” D.E. 214), the Plea Agreement, Defendant’s Stipulated Factual Proffer
(“Factual Proffer,” D.E. 231) and his sworn testimony at the change of plea hearing on
September 1, 2017 (“Plea Hearing,” D.E. 229 2), the Presentence Investigation Report
(“PSI,” D.E. 264) setting forth the Defendant’s relevant conduct and his criminal history,
and the record in this case, and being otherwise fully informed in the premises, the Court
GRANTS the Government’s Agreed-Upon Motion Requesting Imposition of
Communication Restrictions Pursuant to 18 U.S.C. § 3582(d) (D.E. 269) for the reasons
set forth below.
I.

Findings of Fact

On September 1, 2017, Defendant pled guilty to one count of conspiracy to violate
the Racketeer Influenced and Corrupt Organizations Act (“RICO”), in violation of 18
U.S.C. § 1962(d). (See SI at 1-6; Plea Hearing.) In support of his guilty plea, Defendant
2

Although a transcript of the September 1, 2017 change of plea hearing is not yet
available – D.E. 229 merely being the minutes from that hearing, the undersigned recalls
the admissions and other sworn statements Defendant made at the hearing that led the
Court to conclude that a sufficient factual basis existed to support and accept Defendant’s
guilty plea and adopt the plea agreement.
2

Case 1:16-cr-20519-JAL Document 286 Entered on FLSD Docket 11/20/2017 Page 3 of 10

signed a stipulated factual proffer admitting that he was the organizer and leader of a
prison-based criminal organization that, between October 24, 2014 and April 5, 2017,
engaged in acts of wire and mail fraud, interstate trafficking of stolen property,
obstruction of justice, conspiracy to murder, and other criminal activities in the Southern
District of Florida, Southern District of New York, and Northern District of Georgia.
(See Factual Proffer at 2-3; Plea Agreement at 1, 6.) Defendant also admitted that during
the course of his criminal activities, he sought to have several co-conspirators and
witnesses killed. (See Factual Proffer at 2-3, 6-7, 10-11.) Defendant further admitted
that he enlisted a number of other individuals, including other inmates, federal
corrections officers, and non-incarcerated co-conspirators, to participate in the
aforementioned criminal activities. (Id. at 3-11.) Finally, Defendant’s extensive criminal
history includes various frauds, swindles, and crimes of violence (see PSI at 29-49);
many of these crimes were committed while in federal custody (id. at 18, 40, 42, 46). 3

3

The parties also agreed that prior to sentencing, the Government would request,
pursuant to 28 C.F.R. § 501.3, that the Bureau of Prisons (“BOP”), through the Attorney
General, implement Special Administrative Measures (“SAMs”) that restricted
Defendant’s communications in order to prevent violence and/or physical harm to other
persons. (See Motion at 2-3; Plea Agreement at 3-4.) For instance, the parties agreed the
Government would ask BOP to restrict Defendant’s communications to communications
with his step-mother and other approved persons, including defense counsel and staff.
(See Motion at 3; Plea Agreement at 4.) The Government complied with this provision
of the Plea Agreement and the Attorney General authorized the requested SAMs. (See
Motion at 3.) While the SAMs significantly restrict Defendant’s communications and
contacts with others while he is incarcerated, they permit him access to a greater number
of family members and thus are slightly less restrictive than the § 3582(d) restrictions
requested now by the parties. (Id. at 3-4.) Recognizing that authorization and
implementation of SAMs conditions of confinement are solely within the purview of the
executive branch, see 28 C.F.R. § 501.3(a), the Government emphasizes that it is not
3

Case 1:16-cr-20519-JAL Document 286 Entered on FLSD Docket 11/20/2017 Page 4 of 10

II.

Discussion
The conditions of a prisoner’s confinement are usually determined by the Attorney

General through the Bureau of Prisons. See, e.g., 18 U.S.C. § 4001(b)(1) (vesting control
and management of the federal prisons in the Attorney General); 18 U.S.C. § 4042
(outlining the duties of BOP, under the Attorney General’s direction, which includes
managing and regulating all federal prisons and the inmates housed therein); see also
United States v. Sotelo, 94 F.3d 1037, 1041 (7th Cir. 1996) (explaining that, pursuant to a
congressional grant of authority over the treatment and discipline of federal inmates to
BOP, that agency promulgated regulations governing the contact of inmates with persons
outside the prisons; those regulations specifically authorize a warden to significantly
restrict an inmate’s communications with persons outside the prison). However, where
specific statutory authority exists, a sentencing court may impose conditions on a
prisoner’s confinement. See United States v. Felipe, 148 F.3d 101, 109 (2d Cir. 1998)
(citing United States v. Huss, 520 F.2d 598, 602 (2d Cir. 1975)).
Here, statutory authority exists for this Court to impose on Defendant the
conditions of confinement that the parties are jointly requesting. Specifically, 18 U.S.C.
§ 3582(d) permits a district court to limit the criminal association of a defendant
convicted of racketeering activities. This section provides that a court,
in imposing a sentence to a term of imprisonment upon a defendant
convicted of a felony set forth in chapter 95 (racketeering) or 96 (racketeer
influenced and corrupt organizations) of this title . . . or at any time
thereafter upon motion by the Director of the Bureau of Prisons or a United
seeking to modify, overrule, or set aside the SAMs (id. at 4), and nothing in this Order
should be construed to have such an effect.
4

Case 1:16-cr-20519-JAL Document 286 Entered on FLSD Docket 11/20/2017 Page 5 of 10

States attorney, may include as a part of the sentence an order that requires
that the defendant not associate or communicate with a specified person,
other than his attorney, upon a showing of probable cause to believe that
association or communication with such person is for the purpose of
enabling the defendant to control, manage, direct, finance, or otherwise
participate in an illegal enterprise.
18 U.S.C. § 3582(d). See also Felipe, 148 F.3d at 109.
Defendant was convicted of conspiracy to violate the Racketeer Influenced and
Corrupt Organizations Act, in violation of 18 U.S.C. § 1962(d), while he was
incarcerated at the Federal Detention Center in Miami. See SI; Plea Agreement at 1; Plea
Hearing. He therefore is eligible for Section 3582(d) restrictions. 18 U.S.C. § 3582(d).
The request for Section 3582(d) restrictions comes from the Government, as
agreed to by the parties. Based on the facts and the record in this case, the Court finds
that there is probable cause to believe that Defendant’s association or communication
with persons other than his step-mother, his attorneys, or the attorney’s staff would
enable Defendant to “control, manage, direct, finance, or otherwise participate in an
illegal enterprise.” 18 U.S.C. § 3582(d).
As Defendant admits, from October 2014 through April 2015, while in prison, he
was the sole organizer and leader of a prison-based criminal organization (the
“Enterprise”) that engaged in acts of wire and mail fraud, interstate trafficking of stolen
property, obstruction of justice, conspiracy to murder, and other criminal activities. (See
Factual Proffer at 2-3; Plea Hearing.) Defendant and his co-conspirators conducted
regular meetings in person, telephonically, and by any other means of communication at
which they discussed, planned, and otherwise engaged in criminal activity including the
5

Case 1:16-cr-20519-JAL Document 286 Entered on FLSD Docket 11/20/2017 Page 6 of 10

introduction of contraband into federal prisons, bribery, witness intimidation, and murder.
(See Factual Proffer at 3; Plea Hearing.)
During this period, while incarcerated, Defendant repeatedly found ways of
recruiting and conspiring with co-conspirators. (See Factual Proffer at 3; Plea Hearing.)
Notably, between 2015 and 2017, Defendant recruited three co-defendants, two
unindicted co-conspirators, two corrections officers, and various other unidentified coconspirators who operated at his direction in South Florida, Georgia, and New York.
(See Factual Proffer at 3-11; PSI at 8-26.) Defendant also recruited other co-conspirators
by enlisting associates and family members of person with whom Defendant was
incarcerated. (See Factual Proffer at 3, 5, 7-8; PSI at 11, 24-25.)
While incarcerated, Defendant directed co-conspirators to murder and threaten
violence against individuals who posed a threat to him or the Enterprise or jeopardized its
operations, including witnesses to the illegal activities of the Enterprise. (See Factual
Proffer at 2-3, 6-11; PSI at 8-15, 17-24.) In addition, while incarcerated, Defendant
successfully procured five contraband cellular telephones that he used to conduct and
direct criminal activity and steal millions of dollars in jewelry and other valuables. (See
Factual Proffer at 3-10; PSI at 8-9, 23-24.)
Moreover, Defendant previously organized large-scale fraud schemes at other
detention facilities. For example, while incarcerated in New York in 2002, Defendant
was able to recruit a network of co-conspirators over the course of six months, coercing
and threatening these accomplices when they refused to carry out his orders. (PSI at 4446.) Despite BOP’s efforts, Defendant has not ceased his criminal activities -- which
6

Case 1:16-cr-20519-JAL Document 286 Entered on FLSD Docket 11/20/2017 Page 7 of 10

include multiple attempts to have co-conspirators, witnesses, and witnesses’ family
members killed or injured. (See id. at 25-26; Factual Proffer at 7, 10-11.)
The special conditions of confinement that the parties are proposing are severe.
Defendant essentially agreed to solitary confinement and a prohibition on communicating
with everyone but his stepmother and two attorneys (at least until he is able to
demonstrate his communications no longer pose a threat). Nonetheless, the Government
points out that “[t]he parties [] agree that these restrictions, although severe, are
appropriate given Defendant’s history and propensity for recruiting co-conspirators
through fellow inmates, corrections officers, and persons who are not incarcerated.”
(See D.E. 269 at 9.)
In Felipe, the Second Circuit upheld the imposition of special conditions of
confinement similar to those that the parties propose in this case. 148 F.3d 101. The
defendant in Felipe was the leader of a violent gang who was convicted of participating
in racketeering activities while incarcerated. Id. at 109. The district court sentenced the
defendant to life in prison and, pursuant to Section 3582(d), ordered that he be prohibited
from communicating with everyone but counsel and close family members. Id. at 107.
On appeal, the defendant argued the sentencing court was without authority to
impose such stringent conditions of confinement, having failed to identify “a specified
person” with whom he was forbidden to communicate, as required by Section 3582(d).
Id. at 109. The Second Circuit acknowledged that the language of the statute was not
broad, but concluded that the order below did not fall outside the strictures of the statute.
Id. at 110. As the Court explained:
7

Case 1:16-cr-20519-JAL Document 286 Entered on FLSD Docket 11/20/2017 Page 8 of 10

We do not believe Congress expected sentencing courts to list every
individual of a racketeering organization in cases where sufficient reason
exists to believe that association with any member is for the purpose of
participating in an illegal enterprise. Racketeering groups are often large
and boast a constantly changing membership. It would be difficult, if not
virtually impossible, to identify each and every active member of such an
organization. The purpose of § 3582(d) “is to prevent the defendant from
continuing his illegal activities from his place of confinement.” The
conditions imposed upon Felipe were reasonably formulated to accomplish
that objective.
Id. (emphasis in original; internal citation omitted).
The Court finds that the proposed restrictions on Defendant’s communications are
reasonably formulated to prevent him from using his powers of association to continue
his illegal activities while in prison.
III.

Conclusion
Accordingly, it is ORDERED AND ADJUDGED that the Government’s Agreed-

Upon Motion Requesting Imposition of Communication Restrictions Pursuant to 18
U.S.C. § 3582(d) (D.E. 269) is GRANTED as follows:
1.

The Court ORDERS the following conditions of confinement for

Defendant James Sabatino:
a.

Defendant

should

be

confined,

within

the

U.S.

Marshals

Service/BOP/detention facility’s reasonable efforts and existing confinement conditions,
so that he has no contact with other prisoners;
b.

Defendant

should

be

limited,

within

the

U.S.

Marshals

Service/BOP/detention facility’s reasonable efforts and existing confinement conditions,
from having contact (including passing or receiving any oral, written, or recorded
8

Case 1:16-cr-20519-JAL Document 286 Entered on FLSD Docket 11/20/2017 Page 9 of 10

communications) with any other inmate, visitor, attorney, or anyone else, that could
reasonably foreseeably result in Defendant communicating (sending or receiving)
information that could allow Defendant to circumvent the Court’s intent of significantly
limiting Defendant’s ability to control, manage, direct, finance, or otherwise participate
in an illegal enterprise;
c.

The restrictions specified above should permit Defendant’s contacts and

communications with the following persons:

d.

i.

Carol Fardette, Defendant’s step-mother;

ii.

Joseph S. Rosenbaum, Esq., Counsel for Defendant; and

iii.

Kimberly Acevedo, Esq., Co-Counsel for Defendant; and

The restrictions specified above shall remain in place until Defendant

demonstrates his communications no longer pose a threat.
2.

This Order is not intended to affect, in any way, the Attorney General’s

order authorizing the Bureau of Prisons to implement, pursuant to 28 C.F.R. § 501.3,
Special Administrative Measures (SAMs) relating to Defendant’s confinement that are
reasonably necessary to protect persons against the risk of death or serious bodily injury.
3.

The Court retains jurisdiction to consider any applications made by

Defendant, Defendant’s attorneys, or the Government to modify these special conditions
of confinement.

9

Case 1:16-cr-20519-JAL Document 286 Entered on FLSD Docket 11/20/2017 Page 10 of 10

DONE AND ORDERED in Chambers at Miami, Florida this 20th day of
November, 2017.
____________________________________
JOAN A. LENARD
UNITED STATES DISTRICT JUDGE

10

APPENDIX E

Case 1:16-cr-20519-JAL Document 230 Entered on FLSD Docket 09/01/2017 Page 1 of 8

UNITED STATNSDISTRICT COURT

SO UTHER N DISTRICT O F FLO R IDA

CaseNo.16-20519-CR-JAL(s)
UNITED STA TES O F AM ERICA
VS.

JAM ES SABATINO ,
D efendant.

/
PLEA A GR EEM ENT

TheUnitedStatesAttorney'sOfficefortheSouthernDistrictofFlorida(KtthisOffice''land
JamesSabatino(hereinafterreferredtoastheçtdefendanf')enterintothefollowingagreement:
Thedefendantagreesto plead guilty to Count1 ofthe superseding inform ation,w hich
countchargesthatfrom on oraboutOctoberz4,2014,through on oraboutApril5,2017,inM iam i-

Dade County, in the Southern D istrict of Florida,and elsew here,the defendant,together w ith
otherspersonsemployed by and associated w ith a crim inalenterprise thatw asengaged in and the
activitiesofw hich affected interstate com m erce,did conspirew ith others know n and unknown to

theActingUnited StatesAttorney,toviolateTitle l8,United StatesCode,Section 1962(c),that
is,to know ingly conductand participate,directly and indirectly,in theconductofthe affairsofthe

enterprisethrough apattern ofracketeering activity consisting ofm ultipleactsindictableunderthe

followingprovisionsoffederallaw:Title18,UnitedStatesCode,Section1341(mailfraud);Title
t
..

18,United StatesCode, ction 1343 (wirefraud);Title 18,United StatesCode,Section2314

(interstatetran rtationofstolenproperty);andTitle 18,UnitedStatesCode,Section2315(sale
and eiptofstolen goods).Count1furtherallegesthatitwasapartoftheconspiracythatthe
defendantagreed thata conspiratorwould com m itatleasttw o actsofracketeering activity in the
Tjtl
.

r
.*'
.

.

k. %

am e- . awl
tlless;
Titl ' - '
ates 'o e

1' ;-onaSection
.

.

, x
' r clon

' '
.

.

..

o e eu q
V
1(providingorpossessln&

' , 'a
.

w

-

i
tedStatesC'

t-

.

,x x

''' t t
l 1t)t)
,
'
- ' '.'' '

.

'

.

.

-7
.

ssc.

.

' :a lederalcorrectlonsO1'
llcef):

C

Case 1:16-cr-20519-JAL Document 230 Entered on FLSD Docket 09/01/2017 Page 2 of 8

conductofthe affairs ofthe enterprise.A llin violation of Title 18,U nited States Code,Section

1962(d).
This Office agrees to seek dism issal of counts 2 through 29 of the superseding
inform ation,asto this defendant,aftersentencing.

3. ThedefendantisawarethatthesentencewillbeimposedbytheCourtafterconsidering

the advisory FederalSentencing Guidelines and Policy Statements (hereinaftertlsentencing
Guidelines'). The defendantacknowledgesand understandsthatthe Courtwillcompute an
advisory sentence under the Sentencing Guidelines and thatthe applicable guidelines w ill be
determ ined by theCourtrelying in parton theresultsofapre-sentence investigation by the Court's
probation office,which investigation w illcomm ence afterthe guilty plea hasbeen entered. The

defendantis also aware that,undercertain circum stances,the Courtm ay departfrom the advisory

SentencingGuidelinesrangethatithascomputed,andmajraiseorlowerthatadvisorysentence
underthe Sentencing Guidelines. The defendant isfurther aw are and understandsthatthe Court
isrequired to considerthe advisory guideline range detenuined underthe Sentencing Guidelines,
butisnotbound to impose a sentence w ithin thatadvisory range;the Courtisperm itted to tailor
the ultim ate sentence in lightof other statutory concerns,and such sentence m ay be either m ore
severe orless severe than the Sentencing Guidelines'advisory range. K now ing these facts,the
defendantunderstandsand acknow ledgesthatthe Courthasthe authority to im pose any sentence

w ithin and up to thestatutory m axim um authorized by law forthe offensesidentified in paragraph
1 and thatthe defendantm ay notw ithdraw the plea solely asa resultofthe sentence im posed.
4. The defendantalso understands and acknow ledgesthat,asto count 1,the Courtm ay
im pose a statutory m axim um term ofim prisonm entofup to twenty years,follow ed by a term of

supervised release of up to three years. ln addition to a term of imprisonm ent and supervised

Case 1:16-cr-20519-JAL Document 230 Entered on FLSD Docket 09/01/2017 Page 3 of 8

release,theCourtmay imposeasamaximum finethegreaterof(a)$250,000and (b)twicethe
gross pecuniary loss incurred by the victim s in this case. The defendant acknow ledges that

restitution m ustalso be im posed.
5. The defendantfurtherunderstandsand acknow ledgesthat,in addition to any sentence

imposed underparagraph 4 ofthisagreement,aspecialassessmentin the amountof$100willbe
im posed on the defendant. The defendant agrees thatany specialassessm ent im posed shallbe
paid atthetim e ofsentencing. Ifthedefendantisfinancially unableto pay thespecialassessm ent,
the defendantagrees to presentevidence to this Office and the Courtatthe tim e ofsentencing as
to the reasonsforthe defendant'sfailure to pay.
6. This Office reservesthe rightto inform the Courtand the probation office ofallfacts
pertinent to the sentencing process,including a1lrelevant inform ation concerning the offenses

com m itted,whether charged or not,as w ell as concerning the defendant and the defendant's

background. Subjectonlytotheexpresstel'msofanyagreed-uponsentencingrecommendations
contained inthisagreement,tliisOfficefurtherreservestherighttomakeanyrecomm endation as
to the quality and quantity ofpunishm ent.
7. A cknow ledging thattheparties'recom m endationsasto sentencing are notbinding on
the probation office orthe Court,thisOffice and the defendantagreethat,atsentencing:

(a)

thisOfficeandthedefendantshalljointlyrecommendthatl
ir

.

the defendantbe designated to theBureau ofPrisons'(%% OP('s)'')USP
Florence AD M AX facility in Florence,Colorado;

11.

Case 1:16-cr-20519-JAL Document 230 Entered on FLSD Docket 09/01/2017 Page 4 of 8

(b)

thisOffice shall,pursuantto28C.F.R.jj501.3,requestimposition by BOP of

SpecialAdministrative Measures (;çSAM ''),to wit:communications restrictions,which are
intended to preventviolence and/orphysicalharm to otherpersons.Specifically,this O ffice w ill i

.
The
Defendant

requestthatBOP restrictthe defendant'scom m unicationsto non-legally privileged telephonecalls shouldbe
confined during
he time ofhis
and correspondence w ith his step-m other,CarolFardette,and othersas approved by this Office. ti
ncarceration
so thathe has

In addition,thisOftice w illseek SAM restrictionsthatperm itthe defendantto com m unicatew ith nocontactwi
th
This Office shallalso requestthe defendantbe restricted from
undersigned defense counseland hisstaff'
,c
catingwithotherinmatesduring theterm ofhis
iommuni
mpr
i
s
onmen
t,
'
shall

(c)

thisOffke

ot
,
ii.herprisoners'
nefendant's
Comm unicati
on

continuetorequestimposition byBOP ofSAM restrictions arerestricted

from aI1
sonsinsi
de
and that said restrictions be renew ed every yearand enforced until such tim e as the defendant per
an(joutsi
de of

unequivocally demonstratesthathew illnotthreaten ordo violence and/orphysicalhal'
m to other prison,except

for:
a.
Carol
Fardede,the

PerS0nS,

oefendant,s
stepm other,

18U.S.C.35824d)Motion:

-

(d) lthisOfticeagreestoGlepriortosentencingamotion,pursuanttoTitle18,United b.

Joseph S.

States Code, Secti
Ros
baum
on 35824*,requesting imposition of certain conditions of imprisonment co
uen
nse
lfort
'he

i

ncluding the

followjng:

'

'

Defendant,and

'

C.

Kimberl
y

(e)

thisOfficeagreestosubmitawrittenrequesttoBOP requestingthatthedefendant Ac
eve
do,
paral
egalfor
the Defendant.

be designated to BOP's USP Florence AD

facility in Florence,Colorado;

iii.

These

restrictions

(9

this Oftke agrees thatitwillnotoppose the defendant,s motion to cont
nue
Lyi
wç
't.S
eh
sa
-llresma
uchinC ,
7
t-time aswhen

sentencing in this case to N ovem ber4,2017;and

(g)

thisOfficeagrees

'

the Defendant
demonstrate
.

.

v'

q>..

.

.

x.
q

,

his

.

,
*

.

.

5

.

,

,

4

N
.

.

com municatio
s nolonger
pose a threat.
i
v.
The
Courtwillretain

juri
sdicti
onto
consi
derany
appjj
cati
ons
modifythese
special
condi
tions of
confinement.

Case 1:16-cr-20519-JAL Document 230 Entered on FLSD Docket 09/01/2017 Page 5 of 8

i
1:

'

'

'

'

w ill not seek additional charges against the

'

.

foranyother2O1icriiinalcon'
ductofwhichthi
sOffi
ceisawareandthedefendanthasnotbeenchargedwi
th (y
g.
.

.

.

defendant

.

Y

.

.

1

'

8. The defendant is aw are thatthe sentence has notyet been determ ined by the Court.
The defendantalso isawarethatany estim ateoftheprobable sentencing rangeorsentence thatthe
defendantm ay receive,whetherthatestim ate com esfrom the defendant'sattorney,thisOffice,or
theprobation oftsce,isa prediction,nota prom ise,and is notbinding on this Ofice,theprobation
office orthe Court. The defendantunderstandsfurtherthatany recom m endation thatthis Office

m akesto the Courtasto sentencing,whetherpursuanttothisagreem entorotherwise,isnotbinding
on the Courtand the Courtm ay disregard the recom m endation in its entirety. The defendant

understanbs and acknowledges,as previously acknowledged in paragraph 3 above,thatthe
defendantm ay notw ithdraw the defendant'splea based upon the Court's decision notto accepta

sentencingrecommendationmadebythedefendant,thisOffice,orarecommendationmadejointly
by the defendantand thisOftice.
ln the eventthe defendant w ithdraw s from this agreem entprior to or after pleading

gtlilty to the charge identified in paragraph 1 above, this Office shall be released from its
obligationsunderthis agreem ent,and the defendantagreesand understands that:

(a)

the defendantthereby waivesany protection afforded by Section 1B1.8 ofthe

SentencingGuidelines,Rule1149 oftheFederalRulesofCriminalProcedure,andRule410 of

n'

.

the FederalRulesofEvidence;

(b)

thatany statementsmade by the defendantaspartofthe plea discussions,any

debriefingsorinterview s,orin thisagreem ent,w hetherm adepriorto orafterthe execution ofthis
agreem ent, will be adm issible against him w ithout any lim itation in any civil or crim inal
proceeding broughtby the govenzm ent;and

'

-

Case 1:16-cr-20519-JAL Document 230 Entered on FLSD Docket 09/01/2017 Page 6 of 8

(c)

thedefendanthasadoptedtheStipulatedFactualProfferexecutedbythedefendant

onAugust8,2017(theGçproffer''),asthedefendant'sownswornstatement,andthedefendanthas
-

yagainstthedefendant

stipulated to the adm issibility ofthatstatem entin any case brought/by the United States.
10.

This Office and the defendant stipulate to and agree not to contest the facts

contained in theProffer,and stipulatethatsuch facts,in accordancewith Rule 11(b)(3)ofthe
FederalRulesofCrim inalProcedure,provide a suffcientfactualbasis forthe defendant'splea of
guilty in this case.
11. The defendantagreesto forfeitto the United States,voluntarily and im m ediately,all
property,realorpersonal,w hich constitutesorisderived from proceedstraceableto count1 ofthe
superseding inform ation. Such property includes,butis notlim ited to,and the retailitem slisted
in the forfeiture allegations ofthe superseding inform ation. The defendantagreesto consentto

theentryofordersofforfeitureforsuchproperty andaforfeituremoneyjudgmentequalinsum
to the proceedstraceable to count 1. Thedefendantadm its and agreesthatthe conductdescribed
in the superseding infonmation and the Profferprovides a suftk ientfactualand su tutory basisfor
the forfeiture of the property sought by the governm ent. The defendant agrees thatthe U nited

Statesshall,atitsoption,beentitledtoforfeitureofanyproperty(substituteassets)ofthedefendant

tosatisfythemoneyjudgment.ThedefendantalsoagreestoassistthisOfficeinallproceedings,
whetheradministrativeorjudicial,involvingtheforfeituretotheUnited Statesofa1lrights,title,
and interest,regardless oftheirnature orfonn,in a1lassets,including realand personalproperty,

cash and other m onetary instrum ents, wherever located,w hich the defendant
has

'

accum ulated as a result of illegal activities. Additionally, the

defendantagreestoidentifyasbeingsubjecttoforfeitureallsuchassets,andtoassistinthetransfer

Case 1:16-cr-20519-JAL Document 230 Entered on FLSD Docket 09/01/2017 Page 7 of 8

of such property to the United States by delivery to this Ofsce upon this Office's request,a1l

necessary and appropriate docum entation with respect to said assets, including consents to
forfeiture,quit claim deeds and any and all other docum ents necessary to deliver good and
m arketable title to said property.

12. The defendantknow ingly and voluntarily agrees to w aive any claim or defense the
defendantm ay have undertheEighth A m endm entto theU nited StatesConstitution,including any

claim ofexcessivefineorpenaltywithrespecttotheforfeitedprppertyandmoneyjudgment. The

defendantagreestowaivetherighttoajurytrialontheforfeiture.Thedefendantagreestowaive
anyappealfortheforfeitureandtherequirementsofRules32.2and43(a)oftheFederalRulesof
Crim inal Procedure regarding notice of the forfeiture in the superseding information,

announcementoftheforfeitureatsentencing,andincorporationoftheforfeitureinthejudgment.
The defendantfurtheragreesto w aive any applicabletim e lim itsforthe initiation ofadm inistrative

forfeitureand/oranyfurthernotiticationofanyjudicialoradministrativeforfeitureproceedings
brought against property subject to forfeiture based on the allegations in the superseding
inform ation.
The defendantis aware thatTitle 18,United StatesCode,Section 3742 and Title 28,
U nited States Code,Section 1291 afford the defendantthe rightto appealthe sentence im posed in

this case. A cknow ledging this,in exchange for the undertakings m ade by the United States in
thisplea agreem ent,the defendanthereby w aives allrights conferred by Sections 3742 and 1291
to appealany sentence imposed,including any restitution order,orto appealthe m annerin w hich

thesentence w asimposed,unlessthe sentenceexceedsthe m axim um pennitted by statute oristhe
resultofan upw ard departure and/or an upward variance from the advisory guideline range that
the Court establishes at sentencing. The defendant further understands that nothing in this
agreem entshallaffectthe govem m ent'srightand/orduty to appealas setforth in Title 18,United

Case 1:16-cr-20519-JAL Document 230 Entered on FLSD Docket 09/01/2017 Page 8 of 8

StatesCode,Section 3742(1$ andTitle28,United StatesCode,Section 1291. However,ifthe
United States appeals the defendant's sentence pursuantto Sections 3742(b) and 1291,the
defendantshallbe released from the abovew aiverofappellate rights. By signing thisagreem ent,
the defendantacknow ledges thatthe defendanthas discussed the appealw aiver setforth in this
agreem entw ith the defendant's attonwy.
14. Thisistheentireagreem entand understanding between thisOfflce and the defendant.
Thereare no otheragreem ents,prom ises,representations,orunderstandings.
BEN JAM IN G.GREEN BERG
G U N T'K STATES ATTORN EY
vAC

llate:% l zol'
,
?-

r'
By:
%
.
'

Ilate:

'
!
;
p
i
;
'--'/j,
. -

j
,
'.
,
:;
'

By:

X

-

--

-

-

..

-<

CHR ISTOPH ER BROW N E
-e
ASSISTAN U .S.A TTORN EY 'wz
djl
y.
Y
y
,
z
'
z
z

/
/

.

z

t

JOjE.
p.
H-.. OS ' AUM 5ESQ.

/

ARV ' YFORDEFENDANT
.k

....- *

D ate:

l

.

2.& t'-t

By:

%

*

JFE
D'
rk
SoSw
Ax
BA
vTINO

'

cp --- .

.- - .

... .

APPENDIX F

Case 1:16-cr-20519-JAL Document 232 Entered on FLSD Docket 09/01/2017 Page 1 of 2

U N ITED STATES D ISTRICT CO U RT
SO UTHERN D ISTRICT OF FLOR D A

Case N o.16-20519-CR-JAL
UN ITED STA TES OF AM ER ICA
VS.

JAM ES SA BA TW O ,

D efendant.
/

STIPULATED LETTER OF UNDERSTAO ING
The United StatesA ttorney'sO ffice forthe Southern D istrictofFlorida,D efendant,
JAM ES SABA TW O ,and counselforthe D efendant,Joseph S.Rosenbaum ,Esquire,agree and
understand thatin orderto enforce the Stipulated FactualProffersigned on August8,2017,the
Plea A greem entpresented to the Defendantin this instantcase m ustinclude the follow ing term s:
1. The D efendantagrees to plead to a crim inalcharge ofracketeering in violation of 18

U.S.C.j 1962,etseq.,which chargewillcarry atwenty-yearstatutory maximum term of
im prisonment.
2. The G overnm entw illrecom m end the D efendantbe designated to the Bureau ofPrisons

(:%OP'')USPFlorenceADM AX facilityinFlorence,Colorado.
3. TheGovelmmentagreestofileamotionpursuantto 18U.S.C.j3582(d)forspecial
conditions ofconfinem ent,to wit:
a. The D efendantbe prevented from com m unicating w ith anyone otherthan his
step-m other,CarolFardette,undersigned counsel,Joseph S.Rosenbaum ,and
paralegalK im berly A cevedo during the term ofhisim prisonm ent'
,
b. The D efendantbe prevented from com m unicating w ith otherinm atesduring the
term ofhisim prisonm ent;and
These conditions continue under such tim e as the D efendantunequivocally
dem onstrate he w illnotthreaten ordo violence and/orphysicalhnrm to other
PC1*SOnS.

TheGovem mentshall,pursuantto 28C.F.R.j 501.3,requestimposition by BOP of

SpecialAdministrativeM easures(t:SAM ''),towit:communicationrestrictions,which
are intended to preventviolence and orintentionalharm to otherpersons. Specitk ally,
the G overnm entshallrequestthe SAM S to include the D efendant's com m unicationsbe
lim ited to non-legally privileged telephone calls and written correspondence w ith his
step-m other CarolFardette,and legalcom m unication with attorney Joseph S.
Rosenbaum and paralegalK im berly Acevedo. A dditionally,the SAM Sshallrestricta11
com m unication with otherinm ates. The Governm entagrees to requestthe SA M S
Page 1 of2

Case 1:16-cr-20519-JAL Document 232 Entered on FLSD Docket 09/01/2017 Page 2 of 2

restrictionsberenewed and enforced every yearuntilsuch tim easthe Defendant
unequivocallydem onstratesthathewillnotthreaten ordo violence and/orphysicalharm
to otherpersons.
The G overnm entunderstands thatthe D efendantw illnotexecute the Plea A greem entuntil
SA M S restrictions are in place by the Attorney G eneral/BOP. ltisfurtherunderstood thatin the
eventthe SA M S restrictions are denied,the Stipulated FactualProffersigned by the D efendant
on A ugust8,2017,isnulland void.

Notwithstanding theCourt'srecom mendation in theJudgmentand Com mitment,the
G overnm entagreesto also send a w ritten requestfrom theiroffice tö BOP thatthe D efendantbe
designated to Florence A D M AX .
The G overnm entw illnotoppose a defense m otion to continue sentencing in this case until
afterthe D efendantcom pleteshis state sentence on N ovem ber4,2017.
Ifthe Stipulated FactualProfferisvoid for any ofthe reasons stated above,the D efendant

reservesal1therightsandprotectionsaffordedtohim byj1B 1.8oftheSentencingGuidelines,
Rule11(9 oftheCriminalRulesofProcedure,andRule410oftheFederalRulesofEvidence.

BEN JAM W G .G REEN BERG
A CT
STA TES ATTORN EY

Date:îIl(2.
cl+

By:
CHR ISTOPHER BROW N E
ASSIS - T U .S.AT z

'

/

Ilate:

By:t
JosEpk-ff'p kBAUM,EsQ.
CO UN SE FOR THE D EFEN DA N T
..'

Date. f ê é--1
.

B y:
v
JA E SABA TINO
DE
D A NT

Page2 of2

......

APPENDIX G

Case 1:16-cr-20519-JAL Document 287 Entered on FLSD Docket 11/20/2017 Page 1 of 17
USDCFLSD 2458(Rev.09/0s)-Judo enti
naCriminalCase

Paae1of7

U N ITE D STA T E S D IST R IC T C O U R T
Southern D istrict ofFlorida
M iam iD ivision

UN IT ED STATE S O F A M ER ICA

JUD G M ENT IN A CR IM IN AL CA SE

V.

JA M ES SABA TIN O

CaseNumber:16-20519-CR-LENARD(s)
USM N umber:30906-004
CounselForDefendant:JosephRosenbaume imberlyAcevedo
CounselForTheUnited States:ChristopherBrowne
CourtReporter:G izella Baan-proulx

Thedefendantpleaded guilty to count1 oftheSuperseding Inform ation

Thedefendantisadjudicatedguiltyoftheseoffenses:
TITLE & SECTIO N

NA TU RE O F O FFEN SE

18 U

Conspiracy to V iolate the Racketeerlntluenced and

S.C.j 1962(d)

.

CornzptOrganizationsAct(RICO)

O FFEN SE
EN DED

C O UN T

4/5/17

1

The defendantis sentenced as provided in the following pages ofthisjudgment.The sentence is imposed
pursuantto the Sentencing Refonn Actof 1984.

Allrem aining countsaredism issed on th8 motion ofthe governm ent.
Itis ordered thatthe defendantm ust notify the United States attorney for this districtwithin 30 days of any
change ofname,residence,orm ailing addressuntilallfines,restitution,costs,and specialassessm ents imposed

bythisjudgmentarefully paid.Iforderedtopayrestitution,thedefendantmustnotifythecourtandUnitedStates
attorney ofm aterialchanges in econom ic circum stances.
D ate ofIm position ofSentence:11/13/2017

œ

J
A .Lenard
U nited StatesD istrictJudge
D ate: 11/20/17

Case 1:16-cr-20519-JAL Document 287 Entered on FLSD Docket 11/20/2017 Page 2 of 17
USDC FLSD 2458 (Rev.09/08)-JudcmentinaCriminalCase

Paae2of7

DEFENDANT:JAM ES SABATINO
CASE NUM BER:16-20519-CR-LENARD
IM PRISONM ENT
The defendantishereby comm itted to the custody ofthe United StatesBtlreau ofPrisonsto be imprisoned fora
total term of 240 m onths as t: count 1, w hich shall run consecutive to the follow ing cases:
98-6147-C R-Scola,99-114-CR -Scola,13-60040-TP-Scola,and 11th Judicial C ircuit State of Florida cases
F14-587,F13-23163,F13-22901,F13-22899.
The ceurt m akes the follow ing recom m endations to the B ureau of Prisons: Defendant be designated to
Florence A DM A X in Florence,C olorado.

The defendantis rem anded to the custody of the U nited StatesM arshal.
R ETUR N

1haveexecutedthisjudgmentasfollows:

D efendantdelivered on

at

to

,withacertifiedcopy ofthisjudgment.

UN ITED STA TES M AR SH A L

DEPUTY UNITED STATES MARjHAL

Case 1:16-cr-20519-JAL Document 287 Entered on FLSD Docket 11/20/2017 Page 3 of 17
USDCFLSD 2458 (Rev.09/08)-JudkqnentinaCl
iminalCase

Page3of7

DEFENDANT:JAM ES SABATINO
CASE NUM BER:16-20519-CR-LENARD

SPECIAL CONDITIONS OF CONFINEM ENT PURSUANT TO TITLE 18j3582(d)
GrantingtheGovernment'sAgreedUponM otion (D.E.269),pursuanttotheattached OrderandImposing
Association/communicationRestrictionsPursuantto 18j3582(d)(D.E.286),theCourtOrders:
TheDefendantshallbecontined within theU.S.M arshalsService& op detention facility'sreasonable
effortsand existingconfinem entconditions,sothathehasno contactwith otherprisoners;
TheDefendantshallbe lim ited,within theU .S.M arshalsService/Bop detçntion facility'sreasonable

effortsandexistingconfinementconditions,from havingcontact(includingpassingorreceivinganyoral,
m ittenorrecordedcommunications)withanyotherinmate,visitor,attorney,oranyoneelsethatcould
reasonablyforeseeablyresultintheDefendantcommunicating(sendingorreceiving)informationthat
could allow theDefendantto circumventthe Court'sintentofsignificantly lim itingtheDefendant's
ability to control,manage,direct,finance,orothem iseparticipate in an illegalentep rise;
The D eféndantshallbe perm itted to have contactand com m unicationsw ith the follow ing persons:
* CarolFardette,D efendant's step-m other
* Joseph S.Rosenbaum,Esq.,counselforDefendant
* Kim berly A cevedo,Esq.,co-counselforD efendant
4. These restrictions shallrem ain in fullforce and effectuntilsuch tim e thatthe Defendantdem onstrates his
com m tm ications no longerpose a threat.

TheCourtshallretainjurisdictiontoconsideranyapplicationsbytheDefendant,theDefendant'scounsel,
orthe Governm ent,to m odify these specialconditions ofconfinem ent.

6. Theserestrictionsdonot,in any way,affecttheAttorney General'sim plem entation ofSpecial

AdministrativeM easure(SAM).

Case 1:16-cr-20519-JAL Document 287 Entered on FLSD Docket 11/20/2017 Page 4 of 17
JJSDC FLSD 2458(Rev.09/08)-JudRmentinaCriminalCase

PaMç4j
lf7

-.

D EFEN DA NT :JA M ES SABA TIN O
CA SE NU M BER :16-20519-CR-LEN A RD
SUPER V ISED RELEA SE
U pon release from imprisonment,thedefendantshallbe on supelwised releaseforaterm of3 years.
The defendantm ustreporttothe probation oftice in thedistrictto which the defendantisreleased w ithin 48 hoursofrelease
from the custody ofthe Bureau ofPrisons.

The defendantshallnotcomm itanotherfederal,stateorlocalcrime.
The defendantshallnotunlawfully possessa controlled substance.The defendantshallrefrain from any unlawfuluse ofa
controlled substance.The defendantshallsubm itto one drug testwithin 15 days ofrelease from imprisonm entand atleast
two periodic drugteststhereafter,asdeterm ined by thecourt.
The defendantshallcooperate in the collection ofDNA asdirected by the probation oflicer.
The defendantshallnotpossess a firearm ,am m unition,destructivedevice,orany other dangerousweapon.

lfthisjudgmentimposesafineorrestitution,itisaconditionofsupervisedreleasethatthedefendantpayinaccordance
withtheScheduleofPaymentssheetofthisjudgment.
Thedefendantm ustcomply with the standard conditionsthathave been adopted by thiscourtaswellaswith any additional
conditionson theattached page.
STA ND AR D C O ND ITIO N S O F SU PER VISIO N

l.Thedefendantshallnotleavethejudicialdistrictwithoutthepermissionofthecourtorprobationofficer;

2.Thedefendantshallreport.
to theprobationofticerand shallsubmitatruthfulandcompletewritten reportwithinthefirstfiûeen
daysofeachm onth;
3.Thedefendantshallanswertruthfully allinquiriesbytheprobation officerand follow theinstructionsoftheprobationofficer;
4.Thedefendantshallsupporthisorherdependentsand meetotherfamily responsibilities;
5.Thedefendantshallworkregularly atalawfuloccupation,unlessexcused bytheprobation ofticerforschooling,training,or
otheracceptablereasons;
6.Thedefendantshallnotifytheprobation officeratleastten dayspriorto any changein residenceoremployment;
7.Thedefendantshallrefrain from excessiveuseofalcoholandshallnotpurchase,possess,use,distribute,oradministerany
controlledsubstanceorany paraphem aliarelatedto anycontrolledsubstances,exceptasprescribedby aphysician;
8.Thedefendantshallnotfrequentplaceswherecontrolledsubstancesareillegally sold,used,distributed,oradministered;
9.Thedefendantshallnotassociatewithany personsengaged in crim inalactivity and shallnotassociatewithany personconvicted
ofafelony,unlessgranted perm issionto dosoby theprobationofficer;
l0.Thedefendantshallpermitaprobationofficertovisithim orheratanytimeathomeorelsewhereand shallpermitcontiscation
ofany contraband observedinplain view oftheprobation officer;
11.Thedefendantshallnotifytheprobation officerwithin seventptwohoursofbeingarrestedorquestioned byalaw enforcement
ofticer;
'
12.Thedefendantshallnotenterintoany agreem enttoactasan inform eroraspecialagentofalaw enforcementagency withoutthe
perm issionofthecourt;and
l3.Asdirectedbytheprobationofficer,thedefendantshallnotifythirdpadiesofrisksthatm aybe occasionedbythedefendant's
criminalrecord orpersonalhistory orcharacteristicsand shallpermittheprobation officerto makesuch notificationsand to
confirm the'
defendant'scom pliancew ithsuchnotification requirem ent.

Case 1:16-cr-20519-JAL Document 287 Entered on FLSD Docket 11/20/2017 Page 5 of 17
USDC FLSD 2458(Rev,09/08)-Judo entinaCriminalCase

. Pace5of7

DEFEN D AN T:JA M E S SA BA TIN O
CA SE NUM BER:16-20519-CR-LENARD
SPEC IA L C O N DITIO N S O F SU PER V ISIO N
Association Restriction -Thedefendantisprohibited from associating with m embersofhisracketeering
endeavors,includingbutnotlimited to m embersofthe Gambino Organized Crim eFamily ofLa CosaNostraor
any otherknown felonswhileon supervised release.

DisclosureofTelephoneRecords-Thedefendantshallprovidea1lpersonal/businesstelephonerecordsto the
U.S.Probation Officerupon request.Further,the defendantshallprovidetheU.S.Probation Officerw ritten
authorization torequestarecord ofa11thedefendant'soutgoing orincoming telephone callsfrom any telephone
service provider.
FinancialDisclosureRequirement-Thedefendantshallprovide completeaccessto financialinfonnation,
including disclostlreofallbusinessandpersonalûnances,to theU.S.Probation Officer.
M entalHea1th Treatm ent-lfappropriate,thedefendantshallparticipatein an approved inpatient/outpatient

mentalhealthtreatmentprogram .Thedefendantwillcontributetothehcostsofservicesrendered(co-payment)
based on abilitytopay oravailability ofthird party paym ent.
N oNew DebtRestriction -Thedefendantshallnotapply for,solicitorincurally furtherdebt,included butnot
lim itedto loans,linesofcreditorcreditcardcharges,eitherasaprincipalorcosigner,asan individualorthrough
any corporateentity,withoutfirstobtainingperm ission from theUnited StatesProbation Officer.
PermissibleCom puterExam ination -Thedefendantshallsubm itto theU .S.Probation Officerconducting

periodicunannouncedexaminationsofthedefendant'scomputerts)equipmentwhichmayincluderetrievaland
copyingofa11datafrom thecomputerts)andany internalorextemalperipheralstoenstlrecompliancewiththis
condition and/orremovalofsuch equipm entforthepum ose ofconducting am orethorough inspection;andto

haveinstalledonthedefendant'scomputerts),atthedefendant'sexpense,anyhardwareorsoftwaresystemsto
m onitorthedefendant'scomputeruse.

?

Perm issible Search -Thedefendantshallsubm itto asearch ofhis/herperson orproperty conducted in a
reasonable m annerand ata reasonable tim e by the U .S.Probation O fficer.
Self-Employm entRestriction -Thedefendantshallobtainpriorwritten approvalfrom theCotu'tbeforeentering
into any self-employment.

Unpaid Restitution,Fines,orSpecialAssessm ents-Ifthe dtfendanthasany tmpaid amountofrestitution,fines,
orspecialassessm ents,thedefendantshallnotify theprobation officerofany materialchangein the defendant's
econom ic circum stancesthatm ightaffectthe defendant'sability to pay.
Thedefendantshallnotbeengaged in asan owner,employee,orinvestor.Orassociated in ariy way,in any
businessorconcern thatincludestheobtainingofproductsforpurposesofvideos,orfilming ofcomm ercialsor
ally otherm edia.

Case 1:16-cr-20519-JAL Document 287 Entered on FLSD Docket 11/20/2017 Page 6 of 17
USDC FLSD 2458 (Rev.09/08)-JudmnentinaCriminalCase

Pace6of7

DEFENDANT:JAM ES SABATINO
CASE NUM BER:16-20519-CR-LENARD
CRIM IN AL M O NE TAR Y PENA LTIES
The defendantmustpay thetotalcrim inalm onetarypenaltiesunderthescheduleofpaym entson Sheet6.
A ssessm ent
Fine
Restitution

TOTALS

$100.00

$0.00

$10,394,527.65*

If the defendant m akes a partial paym ent, each payee shall receive an approxim ately proportioned
paym ent,unless specified otherwise in the priority order or percentage paym ent colum n below .H ow ever,

pursuantto18U.S.C.j366441),aIInonfederalvictimsmustbepaid beforetheUnited Statesispaid.
NAM E OF PAYEE

TOTAL
LOSSo

RESTITUTION
oupsuym

PRIORITY OR
psucExu cs

Restitution with Im prisonm ent - It is further ordered that the defendant shallpay restitution in the

amountof$10794,527.00.During theperiod ofincarceration,paymentshallbemadeasfollows:(1)ifthe
defendantearnswagesin aFederalPrison Industries(UNICOR)job,then thedefendantmustpay 50% of
wagesearned toward thefinancialobligationsimposed by this Judgmentin a CriminalCase;(2)ifthe
defendantdoesnotwork inaUNICOR job,thenthedefendantmustpay aminimup of$25.00perquarter
toward the fnancialobligationsimposed in this order.Upon release ofincarce'ration,the defendantshall
pay restitution atthe rate of 10% ofm onthly gross earnings,untilsuch tim e as the court m ay alter that

paymentschedulein the interestsofjustice.TheU.S.Bureau ofPrisons,U.S.Probation Office and U.S.
Attorney's O ffice shallm onitor the paym ent of restitution and report to the court any m aterialchange in
the defendant's ability to pay.These paym ents do not preclude the governm ent from using other assetsor

incom eofthedefendantto satisfy the restitution obligations.
# Findingsforthetotalam ountoflossesarerequired underChapters 109As110,1IOA,and 113A ofTitle 18 for
offensescommitted on orafterSeptember 13,1994,butbeforeApril23,1996.
*#Assessm entdue imm ediately unlessotherwise ordered by theCourt.
'-f'
he Governm entto confirm am ountofm oniesowed,ifany totheW Hotel.

Case 1:16-cr-20519-JAL Document 287 Entered on FLSD Docket 11/20/2017 Page 7 of 17
USDC FLSD 2458 (Rev.09/08)-JudgmentinaCriminalCase

Page7of7

.

D EFEN D AN T:JAM ES SA BATIN O
CA SE N U M BER ;16-20519-CR -L ENA R D
SCH ED ULE O F PA Y M EN TS
Having assessed the defendant's ability to pay, paym ent of the total crim inal m onetary penalties is due as
follow s:

A.Lum p sum paym entof$100.00 dueimm ediately.

Unlessthe cotu'thasexpressly ordered otherwise,ifthisjudgmentimposesimprisonment,paymentofcriminal
m onetary penalties is due during imprisonm ent.A11crim inalm onetary penalties,exceptthose paym ents made
through the FederalBureau ofPrisons'Inm ate FinancialResponsibility Program ,are made to the clerk ofthe
court.

The defendant shallreceive creditfor a1lpaym ents previously m ade toward any crim inalm onetary penalties
im posed.

Thisassessment/tine/restitm ion ispayableto theCLERK,UNITED STATES COURTS and isto beaddressed to:

U.S.CLERK'SOFFICE

ATTN:FINANCIAL SEPTION
400 N OR TH M IA M I A VEN UE ,R O O M 08N 09
M IA M I,FL O R IDA 33128-7716

The assessm ent/fine/restitution ispayable imm ediately.The U .S.Bureau ofPrisons,U .S.Probation Office and
the U .S.A ttorney's Office are responsible forthe enforcem entofthisorder.
Jointand Several

D efendantand Co-D efendantN am es and Case N um bers (including defendantnllmber),TotalAmount,Jointand
SeveralAm ount,and corresponding payee,ifappropriate.
CA SE N UM BER

DEFENDANT AND CO-DEF/NDANT NAMES

JO IN T A N D SEV EM L

TOTAL AM OUNT w ouxT

(INCLUDING DEFEN DANT NUM BER)

ValerieKay Hunt
JorgeDuquen
DeniseLewis

$10,394,527.65
$10,394,527.65
$10,394,527.65

$1,430,123.00
$1,430,123.00
$1,430,123.00

The defendantshallforfeitthe defendant's interestin the follow ing property to the U nited States:

M oney judgmentin the amountof$10,372,250 and itemslisted in forfeiture Orderthatwas granted in
open courton 11/13/17.

Paymentsghallbeappliedinthefollowingorder:(1)assessment,(2)restitutionprincipal,(3)restitutioninterest,
(4)fineprincipal,(5)fineinterest,(6)commtmity restitution,(7)penalties,and(8)costs,includingcostof
prosecution and courtcosts.

Casel:
1:16-cr-20519-JAL
Document
287 Ent
Entered
onFLSD
FLSDDocket
Docket11/
11/20/2017
Page18Of
of10
17
Case
16-cr-20519-JAL Docum
ent286
ered on
20/2017 Page

UNITED STA TES D ISTRICT CO UR T
SOUTH ERN D ISTR ICT O F FLO RID A
CA SE N O .16-20519-CR-LEN ARD
U NITED STATES O F AM ER ICA ,
V.

JAM ES SABATIN O ,
D efendant.

/
O RD ER G M NTING G O VER NM ENT 'S A GR EED-UPO N M O TIO N

R EOU ESTIN G IM PO SITIO N O F C OM M UN ICATION RESTRICTION S
PUR SUA NT TO 18 U .S.C .$ 3582(d)AND IM PO SIN G R ESTRICTIO NS O N
DEFEN DA NT'S CO M M U NICA TIO NS PUR SUA NT TO 18 U.S.C.k 3582(d)
TH IS CA U SE is before the Courton the Govem m ent's A greed-upon M otion

Requesting lmposition ofCommunication RestrictionsPursuantto 18U.S.C.j3582(d)
($çM otion,''D .E.269),filed November 13,2017.1 TheGovernmentfiled thisM otion in
accordance w ith the term s of the Plea Agreem ent that D efendant Jam es Sabatino

(tr efendanf')andtheGovernmentexecuted on September 1,2017 ((TleaAgreement,''
D.E.230). In the Plea Agreement,the parties expressly agreed thatthe Govemment
w ould ask the Courtto include,ajpal4 ofD efendant's sentence,an orderrestricting his

communicatibnswhileincarcerated,pursuantto 18U.S.C.j3582(d). Inparticular,the
parties agreed thatthe G overnm entw ould requestim position ofthe follow ing conditions

ofcontinement: (a)Defendantshould be confined sothathe hasno contactwith other
prisoners'
,and (b) Defendant's communications should be restricted from a11persons
l

The Courtgranted the M otion atthe sentencing hearing on N ovem ber 13,2017.

(SeeD.E.271.) ThisOrderadoptsand supplementsthatoralruling.

Case1:
1:16-cr-20519-JAL
Document286
287 Eni
Entered
onFLSD
FLSDDocket
Docket11/
11/20/2017
Page29of
of10
17
case
l6-cr-2osl9-JAL Document
ëred on
20/2017 Page

inside and outside of prison w ith the exception of his step-m other,his law yer,and an
em ployee ofhis lawyer. The parties also agreed thatthe Governm entw ould requestthat

these restrictions rem ain in place untilDefendanthas dem onstrated his com m unications

no longer posed a threat, and that this Court retain jurisdiction to consider any

applications to modify the aforementioned restrictions. (See M otion at2 ! 3,
'Plea
Agreementat4!7(d).)
H aving considered the Governm ent's A greed-upon M otion, the Superseding

Information ($1SI,''D.E.214),thePleaAgreement,Defendant'sStipulatedFactualProffer .
(ssFactualProffer,''D.E.231)and hissworn testimony atthe change ofplea hearing on
September 1,2017 ($T1ea Hearingy''D.E.2292),the Presentence lnvestigation Report

((TSl,''D.E.264)settingforththeDefendant'srelevantconductandhiscriminalhistory,
and the record in this case,and being otherwise fully inform ed in the prem ises,the Court
G R ANTS the G overnm ent's A greed-upon M otion Requesting lm position of

Communication RestrictionsPursuantto 18U.S.C.j3582(d)(D.E.269)forthereasons
setforth below .
1.

Findings ofFact

On Septem ber 1,2017,Defendantpled guilty to one countofconspiracy to violate

the Racketeerlntluenced and CorruptOrganizationsAct(1GRICO''),in violation of18
U.S.C.j 1962(d). (SeeSIat1-6;PleaHearing.) ln supportofhis guilty plea,D efendant
2
A lthough a transcript ofthe Septem ber 1, 2017 change ofplea hearing is notyet
available - D .E.229 m erely being the m inutes from thathearing,the undersigned recalls

the adm issions and other swol'n siatements Defendantmade atthe hearing thatled the
Courtto concludethata sufsciçntfacm albasisexisted to supportand acceptD efendant's
guilty plea and adopttheplea agreem ent.

Case 1:
1:16-cr-20519-JAL
Document 286
287 En
Entered
on FLSD
FLSD Dock
Docket
11/20/2017
Page 3
10of
of10
17
case
l6-cr-20719-JAL Document
tered on
et11
/20/2017 Page

signed a stipulated facm alproffer adm itting that he w as the organizer and leader of a

Prison-based criminalorganization that,àetween October24,2014 and April5,2017,
engaged in acts of wlre and m ail fraud, interstate trafficking of stolen property,

obstruction ofjujtice,conspiracytomurder,andothercriminalactivitiesintheSouthern
District of Florida, Southern District of N ew Y ork, and N orthel'n D istrict of Georgia.

(SeeFactualProfferat2-3;PleaAgreementat1,6.)Defendantalso admittedthatduring
the course of his crim inal activities, he sought to have several co-conspirators and

witnesseskilled. (SeeFactualProfferat2-3,6-7,10-11.) D efendant further adm itted .
that he enlisted a num ber of other individuals, including other inm ates, federal
corrections officers, and non-incarcerated co-conspirators, to participate in the

aforementionedcriminalactivities.(1d.at3-11.)Finally,Defendant'sextensivecriminal
history includes various frauds,swindles,and crimes ofviolence (see PSlat29-49);
3

many ofthesecrimeswerecommitted whilein federalcustody (Z.at18,40,42,46).

3

The parties also agreed that prior to sentencing, the G overnm ent w ould request,

pursuantto28C.F.R.j501.3,thattheBureauofPrisons((% OP''),tllroughtheAttorney
General, implement Special Administrative M easures (ç$SAM s'') that restricted
D efendant's com m unications in order to preventviolence and/or physicalharm to other

persons.(SeeM otionat2-3;PleaAgreementat3-4.) Forinstance,thepartiesagreedthe '
G overnm entwould ask BOP to restrictD efendant's com m unications to com munications
w ith his step-m other and other approved persons,including defense counsel and staff.

(SeeM otion at3;Plea Agreementat4.) The Governmentcomplied with thisprovision
ofthe PleaAgreementand the Attorney Generalauthorized the requested SAM s. (See
M otion at3.) W hile the SAM S significantly restrictDefendant's communications and
contactsw ith othersw hile he isincarcerated,they perm ithim accessto a greaternum ber

offamily members and thus are slightly less restrictive than the j 3582(d)restrictions
requested now by the parties. (Id. at 3-4.) Recognizing that authorization and
implem entation ofSAM S conditions ofconfinem entare solely w ithin the purview ofthe

executive branch,see 28 C.F.R.j 501.3(a),the Govemmentemphasizes thatitis not
3

Case 1:
1:16-cr-20519-JAL
Document
287 Ent
Entered
on FLSD
FLSD Docket
Docket 11/
11/20/2017
Page 411ofof
Case
16-cr-2O519-JAL Docum
ent286
ered on
20/2017 Page
1017

II.

D iscussion

The conditionsofa prisoner's confnem entare usually determ ined by the Atlorney

Generalthrough theBureau ofPrisons.See,e.g.,18U.S.C.j4001(b)(1)(vesting control
and m anagem ent of the federal prisons in the Attorney General); 18 U.S.C. j 4042

(outlining the duties ofBOP,under the Attonaey General's direction,which includes
managing and regulating a1lfederalprisonsand the inmateshoused therein);see also
United Statesv.Sotelo,94 F,3d 1037,1041(7th Cir.1996)(explainingthat,pursuanttoa
congressionalgrantof authority over the treatm entànd discipline of federal inm ates to
BOP,thatagency prom ulgated regulations governing the contactofinm atesw ith persons

outside the prisons;those regulations specificalty authorize a warden to signiscantly

restrictan inmate's communicationswith persons outside theprison). However,where
specisc statutôry authority exists, a sentencing court m ay im pose conditions on a

prisoner'sconfinemeni. SeeUnited Statesv.'
Felipe,148F.3d 101'
,109 (2d Cir.1998)
(citingUnitedStatesv.Huss,520F.2d598,602(2dCir.1975)).
H ere, statutory authority exists for this Court to impose on D efendant the

conditionsofconsnementthatthepartiesarejointly requesting.Specifically,18U.S.C.
j 3582(d) permits a district court to li111it the criminal association of a defendant
convicted ofracketeering activities. Thissection providesthata coul't,
in im posing a sentence to a tel'm of im prisonm ent upon a defendant

convicted ofafelony setforth in chapter95 (racketeering)or96 (racketeer
intluenced and corrupt organizations) of this title . . .or at any time
thereafterupon m otion by the Directorofthe Bureau ofPrisons ora United

seeking to modify,overrule,orsetaside the SAM S tiésat4),and nothing in thisOrder
should be construdd to havesuçh an effect.
4

Case 1:
1:16-cr-20519-JAL
Document
287 Ent
Entered
on FLSD
FLSD Docket
Docket 11/
11/20/2017
Page 5
12ofof10
17
case
16-cr-20519-JAL Docum
ent286
ered on
20/2017 Page

States attorney,m ay include as a partofthe sentence an orderthatrequires
thatthe defendant not associate or colnmunicate w ith a specified person,
other than his attorney,upon a show ing ofprobable cause to believe that
association or com m unication with such person is for the purpose of
enabling the defendant to control, m anage, direct, finance, or otherwise
participate in an illegalenterprise.

18U.S.C.j3582(d). SeealsoFelipe!148F.3d at109.
D efendant w as convicted of conspiracy to violate the R acketeer Influenced and

Corrupt Organizations Act, in violation of 18 U.S.C. j 1962(d), while he was
incarcerated atthe FederalDetention Centerin M iam i. See SI;PleaA greem entat1;Plea

Hearing.Hetherefore iseligibleforSection 3582(d)restrictions.18U.S.C.j3582(d).
The request for Section 3582(d) restrictions comes from the Goverflment, as
,

'

agreed to by the parties. Based on the facts and the record in this case,the Courtfinds
that there is probable cause to believe that D efendant's association or com m unication
w ith persons other than his step-m other, his attorneys, or the attorney's staff w ould
enable D efendant to Ctcontrol,m anage, direct, snance, or othenvise participate in an

illegalenterprise.'' 18U.S.C.j3582(d).
A sD efendantadm its,from October2014 through A pril2015,while in prison,he

was the sole organizer and leader of a prison-based criminal organization (the
GsEnterprise'')thatengaged in acts ofwire and mailfraud,interstate trafficking ofstolen
property,obstruction ofjustice,conspiracy to murder,and othercriminalactivities. (See
FactualProffer at 2*3;Plea Hearing.) Defendant and his co-conspirators conducted
regular m eetings in person,telephonically,and by any other m eans ofcom m unication at
which they discussed,plarmed,and otherwise engaged in crim inalactivity including the
5

Case 1:
1:16-cr-20519-JAL
Document
287 Ent
Entered
on FLSD
FLSD Docket
Docket 11/
11/20/2017
Page 6
13Ofof10
17
Case
16-cr-20519-JAL Docum
ent286
ered On
20/2017 Page

introduction ofcontraband into federalprisons,bribery,w itnessintim idation,and m urder.

(SeeFacmalProfferat3;PleaHearing.)
D uring this period, w hile incarcerated, D efendant repeatedly found ways of

recruiting and conspiring with co-conspirators. (SeeFactualProfferat3;Plea Hearing.)
N otably, between 2015 and 2017, D efendant recruited tlzree co-defendants, two
unindicted co-conspirators,two corrections offcers, and various other unidentiûed coconspirators who operated athis direction in South Florida, Georgia, and N ew Y ork.

(SeeFactuélPröfferat3-11;PSIat8-26.) Defendantalso recruited otherco-ùonspirators
by enlisting associates and fam ily m em bers of person w ith whom D efendant w as

incarcerated. (SeeFactualProfferat3,5,7-89PSIat11,24-25.)
W hile incarcerated, D efendant directed co-conspirators to m urder and threaten

violenceagainstindividualswhoposedathreattohim ortheEnterpriseorjeopardized its
operations,including witnesses to the illegalactivities of the Enterprise. (See Factual
Proffer at 2-3,6-11;PSI at 8-15, 17-24.) In addition,while incarcerated,Defendant
successfully procured five contraband cellular telephones that he used to conduct and

directcriminalactivity and stealmillionsofdollarsinjewelry and othervaluables. (See
FacmalProfferat3-10;PSlat829,23-24.)
M oreover, D efendant previously organized large-scale fraud schem es at other
detention facilities. For example,while incarcerated in N ew Y ork in 2002,D efendant
w as able to recruita netw ork of co-conspirators over the course ofsix m onths,coercing

and threatening these accompliceswhen they refused to carry outhisorders. (PSIat4446.) Despite BOP's efforts,Defendanthas notceased his crihzinalactivities --which
6

Case 1:
1:16-cr-20519-JAL
Document
287 Ent
Entered
on FLSD
FLSD Docket
Docket 11/
11/20/2017
Page 7
14ofof10
17
Case
l6-cr-20519-JAL Docum
ent286
ered on
20/2017 Page

include m ultiple attem pts to have co-conspirators, witnesses, and w itnesses' fam ily

memberskilled orinjured.(Seei1.at25-26;FactualProfferat7,10-11.)
The specialconditions of consnem ent that the parties are proposing are severe.

D efendantessentially agreed to solitary coninem entand aprohibition on com m unicating

with çveryone but his stepmother and two attomeys (at least untilhe is able to
demonstratehiscommunicationsnolongerposeatllreat).Nonetheless,theGovernment
points out that S'Etqhe parties gq agree that these restrictions, although severe, are
appropriate given D efendant's history and propensity for recruiting co-conspirators .
through fellow inm ates, corrections officers, and persons who are not incarcerated.''

(SeeD.E.269 at9.)
In Felipe, the Second Circuit upheld the im position of special conditions of
consnem ent sim ilar to those thatthe parties propose in this case. 148 F.3d 101. The
defendantin Felipe w as the leader ofa violentgang w ho was convicted ofparticipating

in racketeering activitieswhileincarcerated. L(.at109. The districtcourtsentencedthe

defendanttolifeinprisonand,pursuantto Section3582(d),orderedthathebeprohibited
from communicating with everyonebutcounseland closefamilym embers.J-(1.at107.
On appeal,the defendant argued the sentencing court w as w ithout authority to
im pose such stringent conditions of conûnem ent,having failed to identify (Ca specified

person''with whom he was forbidden to communicate,asrequired by Section 3582(d).
J.
d.at 109. The Second Circuitacknowledged thatthe language ofthe statute was not
broad,butconcluded thatthe orderbelow did notfalloutside the stricturesofthe stam te.
Id.at 110. A sthe Courtexplained:
7

Case 1:
1:16-cr-20519-JAL
Document
287 Ent
Entered
on FLSD
FLSD Docket
Docket 11/
11/20/2017
Page 8
15ofof10
17
Case
l6-cr-20519-JAL Docum
ent286
ered On
20/2017 Page

W e do not believe Congress expected sentencing courts to list every
individual of a racketeering orgahization in cases w here sufficient reason
exists to believe that association w ith any m em ber is for the purpose of
participating in an illegal enterprise. Racketeering groups are often large
.and boast a constantly changing m em bership. Itw ould be difficult,if not
virtually im possible,to identify eéch and evel'
y active m em ber of such an

organization. The purpose of j 3582(d)Sdisto preventthe defendantfrom
c'
ontinuing his illegal activities from his place of confinem ent.'' The
conditions imposed upon Felipe were reasonably form ulated to accomplish

thatobjective.

J..
c.
l.(emphasisinoriginal;internalcitationomitted).
The Courtfinds thatthe proposed restrictions on D efendant's com m unications are
.

..

;

7

.

reasonably form ulated to prevbnthim from using his pow ers of association to continue
his illegalactivitieswhilein prison.
111. C onclusion .

A ccordingly,itisO RD ER ED AN D A DJUD G ED thatthe G overnm ent'sA greedUpon M otion Requesting Im position of Com m unicatiop Restrictions Pursuant to 18

U.S.C.j3582(d)(D.E.269)isGRANTED asfollows:
The Court ORD ERS the follow ing conditions of confinem ent for
D efendantJam es Sabatino:
a.

D efendant

should

be

confined, w ithin

the .U .S. M arshals

Servicem op/detention facility's reasonable efforts and existing conûnem ent conditions,
so thathehas'no contactw ith otherprisoners;
D efendant

should

be

lim ited,

w ithin

the

M arshals

ServiceD op/detention facility's reasonable efforts and existing confinem ent conditions,

from having contact (including passing or receiving any ora1, written, or recorded
,

8

'

Case 1:
1:16-cr-20519-JAL
Document 286
287 Ent
Entered
on FLSD
FLSD Docket
Docket 11/
11/20/2017
Page 9
16Ofof10
17
case
16-cr-2O519-JAL Document
ered on
20/2017 Page

communications) with any other inmate,visitor,attorney,or anyone else,thatcould
reasonably foreseeably result in Defendant communicating (sending or receiving)
inform ation thatcould allow D efendantto circum ventthe Court's intent ofsignificantly
lim iting Defendant's ability to control,m anage,direct,finance,or othem ise participate
in an illegalenterprise;
C.

The restrictions specifed above should perm it Defendant's contacts and

com m unicationsw ith the follow ing persons'
.
CarolFardette,D efendant'sstep-m other;

d

.

ii.

Joseph S.Rosenbaum ,Esq.,CounselforD efendant;and

iii.

K im berly A cevedo,Esq.,Co-counselforD efendant;and

The restrictions specified above shall rem ain in place until D efendant

dem onstrateshiscom m unicationsno longerpose athreat.
2.

This Order is not intended to affect,in any w ay,the A ttorney G eneral's

order authorizing the Bureau ofPrisons to implement,pursuantto 28 C.F.R.j 501.3,

SpecialAdminisirative Measures (SAM s)relating to Defendant's confinementthat are

reasonablynecessarytoprotectpersonsagainsttheriskofdeathorseriousbodilyinjury.
The Court retains jurisdiction to consider any applications made by
D efendant,D efendant's attorneys,orthe G overnm entto m odify these specialconditions
ofconfinem ent.

9

Case
1:16-cr-20519-JAL
Document
287 Ent
Entered
onFL
FLSD
Docket
11/20/2017
Page
17of
of117
Cas
e 1:
16-cr-2O519-JAL Doc
ument286
èredOn
SD bo
cket11
/20/2017 Pa
ge 10
0

D O NE AN D O RDER ED in Cham bers at M iam i, Florida this 20th day of
N ovem ber,2017.

W -.
J A N A .LEN ARD
UNITED STA TES D ISTRICT JUD G E

10

APPENDIX H

Case 1:16-cr-20519-JAL Document 269 Entered on FLSD Docket 11/13/2017 Page 1 of 11

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-20519-CR-JAL
UNITED STATES OF AMERICA
vs.
JAMES SABATINO,
Defendant.
/
GO ERNMEN S AGREED-UPON MOTION REQUESTING IMPOSITION OF
COMMUNICATION RESTRICTIONS PURSUANT TO 18 U.S.C. § 3582(d)
The United States of America, by and through the undersigned Assistant United States
Attorney, respectfully requests that this Court include as part of the sentence an order restricting
Defendant James Sabatino s (“Defendant[ s]”) communications pursuant to 18 U.S.C. § 3582(d).
In support, the government states:
INTRODUCTION
1.

On September 1, 2017, Defendant pled guilty to count one of a superseding

information charging him with, inter alia, conspiracy to violate the Racketeer Influenced and
Corrupt Organizations Act, in violation of 18 U.S.C. § 1962(d). (See Presentence Investigation
Report (“PSI”) [ECF No. 257] at 1). Defendant s sentencing hearing is currently scheduled for
November 13, 2017. (Id.).1
2.

In support of his guilty plea, Defendant signed a stipulated factual proffer ([ECF

No. 231]) admitting that he was the organizer and leader of a prison-based criminal enterprise
engaged in acts of mail and wire fraud, interstate trafficking of stolen property, and obstruction
1

The government moved to continue the sentencing hearing for a period of thirty days based on the late disclosure
of the PSI. (See Gov t Motion to Continue Sentencing [ECF No. 258]).

Case 1:16-cr-20519-JAL Document 269 Entered on FLSD Docket 11/13/2017 Page 2 of 11

of justice. (See Factual Proffer at 2-3, 6-7). During the course of Defendant s criminal activities,
Defendant sought to have several co-conspirators and witnesses killed. (Id. at 6-7). Defendant
enlisted a number of enterprise members in furtherance of his crimes, including other inmates,
Federal corrections officers, and non-incarcerated co-conspirators. (Id. at 4, 7, 8-10). As noted in
the PSI, Defendant s extensive criminal history includes various frauds, swindles, and crimes of
violence, including assaults and threatening communications. (See PSI at 38, 40, 43, 51-52).
Defendant committed many of these crimes while in Federal custody. (Id.).
3.

Prior to Defendant s guilty plea, the parties executed a plea agreement ([ECF No.

230]). As part of that agreement, the government, with Defendant and defense counsel s express
consent, agreed to file the instant Motion requesting imposition by the Court of certain
conditions of confinement including: (a) that Defendant should be confined during the time of
his incarceration so that he has no contact with other prisoners, and (b) that Defendant s
communications should be restricted from all persons inside and outside of prison. (See Plea
Agreement at ¶ 7(d)(i), (d)(ii)). The parties also agreed that the government would request in its
Motion that Defendant be allowed to communicate with his step-mother, Defendant s attorney,
and an employee of Defendant s attorney. (Id. at ¶ 7(d)(ii)(a)-(c)). The parties further agreed that
the government would request in its Motion that (a) the Section 3582(d) restrictions remain in
place until Defendant demonstrated his communications no longer posed a threat, and (b) the
Court retain jurisdiction to consider any applications to modify the restrictions. (Id. ¶ 7(d)(iii),
(d)(iv)).
4.

The plea agreement also required the government, again with Defendant and

defense counsel s express consent, to request that the Bureau of Prisons (through the Attorney

2

Case 1:16-cr-20519-JAL Document 269 Entered on FLSD Docket 11/13/2017 Page 3 of 11

General) impose Special Administrative Measures (“SAMs”), pursuant to 28 C.F.R. § 501.3.2
(Id. ¶ 7(b)). Specifically, the government agreed to request that BOP restrict Defendant s
communications to communications with his step-mother and other approved persons, including
defense counsel and his staff. (Id.). The government complied with this provision of the plea
agreement several months before the change-of-plea hearing by formally requesting imposition
of SAMs.
5.

Eleven (11) days after the change-of-plea hearing, the Attorney General granted

the government s request and authorized3 the origination of SAMs based on the substantial risk
that Defendant s communications or contacts with other persons could result in death or serious
bodily injury. See 28 C.F.R. § 501.3(a). The SAMs4 significantly restrict Defendant s
communications and contacts with others while he is incarcerated. For example, the SAMs
prevent Defendant
from having contact (including passing or receiving any oral, written, or recorded
communications) with any other inmate, visitor, attorney, or anyone else, . . . ,
that could reasonably foreseeably result in [Defendant] communicating (sending
or receiving) information that could circumvent the SAM s intent of significantly
limiting [Defendant] s ability to communicate (send or receive) threatening
information.
The SAMs do, however, permit Defendant to communicate with his step-mother, immediate
family members, Defendant s attorney, and the aforementioned employee of Defendant s
attorney. Therefore, the provisions of the SAMs concerning permissible contacts are slightly less

2

28 C.F.R. § 501.3(a) states: “Upon direction of the Attorney General, the Director, Bureau of Prisons, may
authorize the Warden to implement special administrative measures that are reasonably necessary to protect persons
against the risk of death or serious bodily injury.”
3

(See Def. Motion to Strike [ECF No. 238] at 1) (acknowledging “Defendant was served with notice that the
Attorney General authorized SAMs”).
4

The official document ordering implementation of the SAMs has not been attached to this Motion but will be made
available to the Court upon request.

3

Case 1:16-cr-20519-JAL Document 269 Entered on FLSD Docket 11/13/2017 Page 4 of 11

restrictive than those proposed herein, in that they permit Defendant s communications with
immediate family members should he choose to have such communications.
6.

As noted, the Attorney General has already authorized the above-described SAMs

restrictions. This Motion in no way seeks to modify, overrule, or set aside the SAMs.
Implementation of SAMs conditions of confinement are exclusively a function of the Executive
and the Court is without authority to affect such conditions. See 28 C.F.R. § 501.3(a), (c), (e), (f).
Furthermore, although the Court may impose, pursuant to its Section 3582(d) authority,
restrictions more severe than those imposed by the SAMs, the Court cannot order less restrictive
conditions while the SAMs5 remain in place. See Yousef v. Reno, 254 F.3d 1214, 1220-21 (10th
Cir. 2001) (finding Bureau of Prisons retains discretion as to whether to implement SAMs and
how to execute them).
APPLICABLE LAW
7.

The conditions of a prisoner s confinement are ordinarily within the sole

discretion of the Attorney General through the Bureau of Prisons (“BOP”). See, e.g., 18 U.S.C. §
4001(b)(1) (“The control and management of Federal penal and correctional institutions, . . . ,
shall be vested in the Attorney General”); 18 U.S.C. § 4042 (outlining BOP s duties under the
direction of the Attorney General). See also United States v. Sotelo, 94 F.3d 1037, 1041 (7th Cir.
1996) (“Congress has delegated authority over the treatment and discipline of inmates to [BOP].
Pursuant to that grant of authority, [BOP] has promulgated regulations governing the contact of
inmates with persons outside the prison, and those regulations specifically authorize a warden to
5

Under 28 C.F.R. § 501.3, SAMs may be imposed for up to 120 days or, with the approval of the Attorney General,
a longer period of time not to exceed one year. SAMs may be extended thereafter by the Director, Bureau of Prisons,
in, increments not to exceed one year “upon receipt by the Director of an additional written notification from the
Attorney General, or, at the Attorney General s direction, from the head of a federal law enforcement agency . . . ,
that there continues to be a substantial risk that the inmate s communications or contacts with other persons could
result in death or serious bodily injury to persons, or substantial damage to property that would entail the risk of
death or serious bodily injury to persons.” 28 C.F.R. § 501.3(c).

4

Case 1:16-cr-20519-JAL Document 269 Entered on FLSD Docket 11/13/2017 Page 5 of 11

significantly restrict an inmate s communications with individuals outside the prison . . . .”)
(internal citations omitted); Yousef, 254 F.3d at 1220-21.
8.

Accordingly, “except where specific statutory authority exists, the place and

conditions of confinement are in the first instance, matters of executive rather than judicial
branch authority.” United States v. Huss, 520 F.2d 598, 602 (2d Cir. 1975) (footnote omitted).
9.

However, 18 U.S.C. § 3582(d) permits a district court, under certain

circumstances, to
include as a part of the sentence an order that requires that the defendant not
associate or communicate with a specified person, other than his attorney, upon a
showing of probable cause to believe that the association or communication with
such person is for the purpose of enabling the defendant to control, manage,
direct, finance, or otherwise participate in an illegal enterprise.
18 U.S.C. § 3582(d). By its terms, Section 3582(d) permits the “[i]nclusion of an order to limit
criminal association of organized crime and drug offenders.” Id. The statute gives the court the
discretion to impose limited restrictions on certain kinds of defendants, namely, those “convicted
of a felony set forth in chapter 95 (racketeering) or 96 (racketeer influenced and corrupt
organizations) of this title or [Title 21 drug offenses], . . .” Id. See also Sotelo, 94 F.3d at 1041
(finding district court lacked authority to impose Section 3582 restrictions on inmate convicted
of mailing threatening communications).
10.

A sentencing court may not impose Section 3582 conditions sua sponte. “3582(d)

requires a motion by the Director of the BOP or a United States attorney to invoke the district
court s authority to impose a communication restriction after sentencing. The sentencing court
may not, upon its own motion, invoke this same authority.” United States v. Allmon, 702 F.3d
1034, 1037 (8th Cir. 2012) (emphasis added).

5

Case 1:16-cr-20519-JAL Document 269 Entered on FLSD Docket 11/13/2017 Page 6 of 11

11.

With respect to the kinds of restrictions permitted by Section 3582(d), the case

law provides little guidance. See United States v. Corozzo, No. 08-CR-76, 256 F.R.D. 398, 401
(E.D.N.Y. April 23, 2009) (Weinstein, J.) (“Section 3582 is almost never used.”). On its face, the
statute permits the Court to enter an order that requires “that the defendant not associate or
communicate with a specified person” if “association or communication with such person is for
the purpose of enabling the defendant to control, manage, direct, finance, or otherwise participate
in an illegal enterprise.” 18 U.S.C. § 3582(d) (emphasis added).
12.

At least one court has recognized the inherent difficulties presented by this

“specified person” language, United States v. Felipe, 148 F.3d 101, 110 (2d Cir. 1998), cert.
denied, 525 U.S. 907 (1998). There, Felipe, the leader of a violent gang, was convicted on
several racketeering charges, including murder, and sentenced to life imprisonment. Id. at 10506. As part of Felipe s sentence, the district court imposed “special conditions of confinement,”
including a restriction on Felipe s ability to correspond with anyone except his attorney and close
family members. Id. at 107. The district court later altered the communication restriction in
response to Felipe s motion to vacate and set aside the sentence, broadening the restriction to
include a few additional individuals not previously contemplated by the restrictions. Id. The
court otherwise denied Felipe s motion to vacate the sentence and also denied a later request by
Felipe to have the restriction amended. Id. Felipe appealed, claiming the district court did not
have the authority to implement such conditions of confinement and that the conditions violated
his constitutional rights. Id. at 109. The Second Circuit, in affirming the restriction,
acknowledged that the district court s order “fails to identify ‘a specified person with whom
Felipe may not communicate, as required by § 3582(d), but rather forbids communication with

6

Case 1:16-cr-20519-JAL Document 269 Entered on FLSD Docket 11/13/2017 Page 7 of 11

everyone but close family members.” Id. at 110. Nevertheless, the court of appeals found that
such a restriction was consistent with Section 3582(d):
While we acknowledge that the language of the statute is not broad, the trial
court s order, in our view, does not fall outside it. We do not believe Congress
expected sentencing courts to list every individual of a racketeering organization
in cases where sufficient reason exists to believe that association with any
member is for the purpose of participating in an illegal enterprise. Racketeering
groups are often large and boast a constantly changing membership. It would be
difficult, if not virtually impossible, to identify each and every active member of
such an organization. The purpose of § 3582(d) is to prevent the defendant from
continuing his illegal activities from his place of confinement. The conditions
imposed upon Felipe were reasonably formulated to accomplish that objective.
Felipe, 148 F.3d at 110 (internal citation and quotation marks omitted). But see Corozzo, 256
F.R.D. at 400, 402 (questioning whether restriction “barring the defendant from associating or
communicating with any member or associate of organized crime during his incarceration and
supervised release” was constitutional).
13.

Finally, with respect to the timing of Section 3582(d) restrictions, the statute

explicitly allows the sentencing court to impose a communication restriction “ ‘at some time
other than sentencing. ” Allmon, 702 F.3d at 1037 (quoting Dolan v. United States, 130 S.Ct.
2533, 2545 (2010) (Roberts, J. dissenting)). In Felipe, the court of appeals even suggested that a
district court maintains jurisdiction6 to modify a Section 3582(d) order at any time during the
period of incarceration. Id. at 111 (“We are further persuaded . . . by the fact that the same
district judge has retained jurisdiction over Felipe s case to consider either his or [BOP s]
applications to modify the conditions on the basis of any change of circumstances or for any

6

In Felipe, the district court, in the judgment and orders imposing the restrictions, explicitly “retain[ed] jurisdiction
to consider any application by the defendant or [BOP] to modify the conditions of Mr. Felipe s incarceration on the
basis of any change of circumstances or other just cause.” United States v. Felipe, No. 94CR00395, Judgment
(Attached as Attachment “A”) (S.D.N.Y. Feb. 14, 1997); see also United States v. Felipe, No. 94CR00395,
Memorandum and Order, 1997 WL 220302, at *3 (S.D.N.Y. April 29, 1997) (Martin, J.) (“the Court has made clear
that it is retaining jurisdiction to change any condition that either [BOP] or the defendant can persuade the Court is
either inappropriate or unworkable.”).

7

Case 1:16-cr-20519-JAL Document 269 Entered on FLSD Docket 11/13/2017 Page 8 of 11

other just cause.”). But see Corozzo, 256 F.R.D. at 401 (disagreeing and finding that
“interference with [BOP s] execution of a sentence is a dubious extension of court jurisdiction
over prison conditions and would normally be considered by a court in the venue in which the
prisoner is being held, not by the court that imposed the sentence.”).
ARGUMENT
14.

Defendant was convicted of conducting racketeering activities while incarcerated

at the Federal Detention Center (“FDC”) in Miami, in violation of 18 U.S.C. § 1962(d).
(Superseding Information [ECF No. 214]; Plea Agreement at 1; Sept. 1, 2017 Minute Entry for
proceedings held before Judge Joan A. Lenard: Change of Plea Hearing as to James Sabatino
held on 9/1/2017 [ECF No. 229]). He is therefore eligible for Section 3582(d) restrictions. 18
U.S.C. § 3582(d).
15.

As noted in the factual proffer supporting his plea, Defendant has repeatedly

found ways of recruiting and contacting co-conspirators from prison. (Factual Proffer at 3).
Notably, between 2015 and 2017, Defendant recruited three co-defendants, two unindicted coconspirators described in the factual proffer, a corrections officer, and various other unidentified
co-conspirators who operated at Defendant s direction in South Florida, New York, and Georgia.
Defendant coordinated with certain co-conspirators repeatedly over the course of two years. (See
id. at 7, 8-10). Defendant also recruited co-conspirators by enlisting associates and family
members of persons with whom Defendant was incarcerated. (PSI at 8, 9; Factual Proffer at 8).
Defendant succeeded, on at least five occasions, in procuring contraband cellular telephones
inside FDC, which devices he used to conduct and direct criminal activity and steal millions of
dollars in jewelry and other goods. (Factual Proffer at 4-7). Defendant has previously succeeded
in organizing large-scale fraud schemes at other detention facilities. (PSI at 43-45). For example,

8

Case 1:16-cr-20519-JAL Document 269 Entered on FLSD Docket 11/13/2017 Page 9 of 11

in 2002, Defendant was incarcerated in the State of New York and was able to recruit a network
of co-conspirators over the course of six months, coercing and threatening these accomplices
when they refused to carry out his orders. (Id. at 45). Notably, Defendant paid fraud proceeds
from the 2002 scheme to the same co-conspirator who received stolen goods as a result of
Defendant s 2015 crimes. (PSI at 13, 44).
16.

Despite BOP s efforts, Defendant has not ceased his criminal activities, which

include multiple attempts to have co-conspirators, witnesses, and witnesses family members
harmed or killed. (See id. at 7, 10-11; PSI at 25-26). The parties agree that these facts support a
finding of probable cause to believe that Defendant s current association or communication with
persons other than his step-mother, attorney, and attorney s staff would give Defendant
additional opportunities to “control, manage, direct, finance, or otherwise participate in an illegal
enterprise.” 18 U.S.C. § 3582(d) (requiring finding of probable cause to support restriction).
17.

The parties further agree that these restrictions, although severe, are appropriate

given Defendant s history and propensity for recruiting co-conspirators through fellow inmates,
corrections officers, and persons who are not incarcerated. As noted, the purpose of the proposed
restrictions is to prevent Defendant from continuing his illegal activities from his place of
confinement; the proposed, agreed-upon restrictions are reasonably formulated to accomplish
this objective. See Felipe, 148 F.3d at 110.
REQUEST FOR RESTRICTIONS
Accordingly, the Government asks that the following conditions of confinement be
imposed at sentencing and reflected in the judgment:

9

Case 1:16-cr-20519-JAL Document 269 Entered on FLSD Docket 11/13/2017 Page 10 of 11

1.

Defendant should be confined, within the U.S. Marshals Service/BOP/detention

facility s reasonable efforts and existing confinement conditions, so that he has no contact with
other prisoners;
2.

Defendant should be limited, within the U.S. Marshals Service/BOP/detention

facility s reasonable efforts and existing confinement conditions, from having contact (including
passing or receiving any oral, written, or recorded communications) with any other inmate,
visitor, attorney, or anyone else, that could reasonably foreseeably result in the inmate
communicating (sending or receiving) information that could allow the inmate to circumvent the
Court s intent of significantly limiting the inmate s ability to control, manage, direct, finance, or
otherwise participate in an illegal enterprise;
3.

That the restrictions specified above should permit Defendant s contacts and

communications with the following persons:
a.

Carol Fardette, Defendant s step-mother;

b.

Joseph S. Rosenbaum, Counsel for Defendant; and

c.

Kimberly Acevedo, Paralegal to Counsel for Defendant.

4.

The government further requests that these restrictions remain in place until

Defendant demonstrates his communications no longer pose a threat, and that the Court retain
jurisdiction to consider any applications to modify these special conditions of confinement.
5.

As noted, nothing in the government s Motion seeks, in any way, to modify,

overrule, or set aside any provision(s) in the Attorney General s order authorizing SAMs
conditions of confinement. Accordingly, the Government requests that this Court s order
specifically reflect that it is not intended to affect the Attorney General s implementation of
SAMs.

10

Case 1:16-cr-20519-JAL Document 269 Entered on FLSD Docket 11/13/2017 Page 11 of 11

The government has conferred with defense counsel of record, Joseph S. Rosenbaum,
Esq., who, as noted, has agreed to the filing of this Motion and to the imposition of Section
3582(d) restrictions.
Respectfully submitted,
BENJAMIN G. GREENBERG
ACTING UNITED STATES ATTORNEY
By:

/s/ Christopher B. Browne
Christopher B. Browne
Assistant United States Attorney
Southern District of Florida
Florida Bar No. 91337
99 Northeast 4th Street, 4th Floor
Miami, Florida 33132-2111
Telephone: (305) 961-9419
Facsimile: (305) 536-4699
E-mail: christopher.browne@usdoj.gov

CERTIFICATE OF SERVICE AND CONFERRAL
I HEREBY CERTIFY that I electronically filed the foregoing document with the Clerk
of the Court using CM/ECF on November 13, 2017. I further certify that, pursuant to this Court s
Local Rule 88.9(a) and prior to filing this motion, I conferred with defense counsel of record,
Joseph S. Rosenbaum, Esq., who indicated that he agrees to the filing of the foregoing, agreedupon motion.
/s/ Christopher B. Browne
Assistant United States Attorney

11

APPENDIX I

USCA11 Case: 19-12916

Date Filed: 08/17/2020

Page: 1 of 8

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-12916
Non-Argument Calendar
________________________
D.C. Docket No. 1:16-cr-20519-JAL-1
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
JAMES PETER SABATINO,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(August 17, 2020)
Before WILSON, MARTIN, and ANDERSON, Circuit Judges.
PER CURIAM:
James Peter Sabatino is a federal prisoner subject to special detention
conditions that restrict him to communicating with only a small number of people,
namely his step-mother and current legal counsel. He appealed the district court’s

USCA11 Case: 19-12916

Date Filed: 08/17/2020

Page: 2 of 8

denial of his post-judgment motion to authorize him to communicate with his
former attorney and paralegal. Because the district court has already granted the
relief Sabatino seeks, we dismiss his appeal as moot.
I.
In 2017, Sabatino entered into a plea agreement and then pled guilty to
conspiring to conduct a racketeering enterprise, in violation of 18 U.S.C.
§ 1962(d). Under the terms of the agreement, the government would request that
the district court and the Bureau of Prisons (“BOP”) impose certain
communication restrictions on Sabatino during his incarceration. Sabatino agreed
that those restrictions, also known as Special Administrative Measures, would
prohibit him from communicating with anyone other than his attorney, Joseph S.
Rosenbaum; Kimberly Acevedo, who was then a paralegal and is now an attorney;
and his step-mother, Carol Fardette. Sabatino and the government agreed these
restrictions would remain in place until “such time as when [Sabatino]
demonstrate[s] his communications no longer pose a threat.” They also stipulated
that the district court would “retain jurisdiction to consider any applications [to]
modify these special conditions of confinement.”
Following Sabatino’s change-of-plea hearing, and prior to sentencing, the
government requested the district court restrict Sabatino’s communications,
consistent with the plea agreement. At the sentencing hearing, the district court
2

USCA11 Case: 19-12916

Date Filed: 08/17/2020

Page: 3 of 8

sentenced Sabatino to 240-months imprisonment and imposed the restrictions
requested by the government. After the hearing, the district court issued a written
order granting the government’s motion to impose communications restrictions.
In July 2018, the Federal Public Defender requested the district court
appoint substitute counsel to represent Sabatino on appeal due to a conflict. The
district court granted the motion and appointed Ivy Ginsberg as Sabatino’s
appellate counsel, pursuant to the Criminal Justice Act (“CJA”). Rosenbaum
remained as Sabatino’s counsel in the district court. In October 2018, the district
court granted Sabatino’s motion to modify his communications restrictions so he
could communicate with Ginsberg about his appeal. The following month,
Sabatino moved the district court to appoint Ginsberg as his attorney in district
court as well, joining Rosenbaum. The court denied the motion, on the ground that
two court-appointed attorneys were not needed to represent Sabatino in his district
court proceedings. Sabatino filed a motion to reconsider which requested the
district court appoint Ginsberg as his sole attorney in district court. The district
court granted the motion, substituted Ginsberg as Sabatino’s district court counsel,
and terminated Rosenbaum as counsel of record.
In April 2019, Sabatino filed a pro se motion requesting that the district
court order the BOP to allow him to communicate with Rosenbaum. His motion
stated that a letter he sent to Rosenbaum was returned undelivered after the
3

USCA11 Case: 19-12916

Date Filed: 08/17/2020

Page: 4 of 8

prison’s legal department determined that, because Rosenbaum had been
terminated as counsel of record, Sabatino’s communication restriction order
prohibited him from communicating with Rosenbaum. The district court denied
Sabatino’s motion. The court said that, because Rosenbaum no longer represented
Sabatino, Sabatino was no longer permitted to communicate with him or Acevedo.
In May 2019, Sabatino, now with aid of counsel, again moved for
authorization to communicate with Rosenbaum and Acevedo. His motion
explained that Rosenbaum continued to represent him as attorney of record in three
other cases and was best positioned to communicate with him about those cases.
Sabatino also argued that the district court lacked authority to add a
communication restriction without a motion from the director of the BOP or the
United States Attorney. On July 10, 2019, the district court denied the motion,
noting only that the other cases in which Rosenbaum was Sabatino’s counsel of
record had all been closed.
Sabatino filed a notice of appeal and moved the district court to stay its order
denying his motion to communicate with Rosenbaum and Acevedo. In October
2019, the district court entered an order stating it would reconsider its July 2019
order if our Court relinquished jurisdiction over the appeal. Sabatino then filed a
motion asking this Court to stay the appeal pending the district court’s ruling on

4

USCA11 Case: 19-12916

Date Filed: 08/17/2020

Page: 5 of 8

his motion to reconsider. This Court granted his motion to stay the appeal. United
States v. Sabatino, No. 19-12916 (11th Cir. Oct. 15, 2019).
The appellate briefing schedule now stayed, Sabatino moved the district
court to reconsider its July 2019 order. The same day, Ginsberg requested to
withdraw as CJA counsel of record and that Rosenbaum be reappointed as CJA
counsel. On November 6, 2019, the district court granted Ginsberg’s motion to
withdraw and reappointed Rosenbaum as Sabatino’s CJA counsel in district court.
Because Rosenbaum and Acevedo’s reappointment as counsel meant Sabatino
could communicate with them once more, the court denied as moot Sabatino’s
motions for reconsideration and stay of the July 2019 order. Sabatino proceeded
with his appeal and filed his opening brief on November 14, 2019.
II.
Mootness is jurisdictional and must be resolved before the merits of the case.
Al Najjar v. Ashcroft, 273 F.3d 1330, 1336 (11th Cir. 2001) (per curiam). We
review de novo questions of jurisdiction, including mootness. See United States v.
Cartwright, 413 F.3d 1295, 1299 (11th Cir. 2005) (per curiam); see also CAMP
Legal Def. Fund, Inc. v. City of Atlanta, 451 F.3d 1257, 1268 (11th Cir. 2006).
III.
Sabatino appeals the district court’s July 10, 2019, denial of his motion to
authorize communication with Rosenbaum and Acevedo. After Sabatino filed a
5

USCA11 Case: 19-12916

Date Filed: 08/17/2020

Page: 6 of 8

notice of appeal, the district court issued an order authorizing him to communicate
with Rosenbaum and Acevedo. Because Sabatino has already obtained the relief
he sought, he can obtain no meaningful relief from this Court and his appeal is
moot.
Under Article III of the Constitution, a federal court’s jurisdiction is limited
to active “Cases” and “Controversies.” U.S. Const. art. III, § 2. A case on appeal
becomes moot, and ceases to be an active case or controversy, if events occur after
the filing of the appeal that deprive the appeals court of the ability to give the
appellant meaningful relief. See also Christian Coal. of Fla., Inc. v. United States,
662 F.3d 1182, 1189–90 (11th Cir. 2011) (holding that a case or controversy must
exist at all stages of review). When this happens, the appeal must be dismissed.
Soliman v. United States ex rel. INS, 296 F.3d 1237, 1242 (11th Cir. 2002) (per
curiam). “Any decision on the merits of a moot case or issue would be an
impermissible advisory opinion.” Fla. Ass’n of Rehab. Facilities, Inc. v. Fla. Dep’t
of Health & Rehab. Servs., 225 F.3d 1208, 1217 (11th Cir. 2000).
Here, the district court granted the relief Sabatino seeks, so there is no longer
meaningful relief to be obtained from our Court and the appeal must be dismissed
as moot. See Soliman, 296 F.3d at 1243 (dismissing as moot an appeal related to
immigration detention conditions because the detainee received the requested
relief). In his motion to stay briefing in this Court, Sabatino acknowledged that
6

USCA11 Case: 19-12916

Date Filed: 08/17/2020

Page: 7 of 8

“[i]f the district court reconsiders its prior order and grants the motion to authorize
communication with attorneys Rosenbaum and Acevedo, then the appeal before
this court would be unnecessary.” But after the district court issued an order
allowing Sabatino to communicate with Rosenbaum and Acevedo, Sabatino
nonetheless continued his appeal. He now requests that we “remand to the District
Court with instructions on the proper way of evaluating this and future
Modifications to the communication restrictions.” That is nearly the definition of a
purely advisory opinion, which we lack jurisdiction to issue. See Miller v. FCC,
66 F.3d 1140, 1145 (11th Cir. 1995) (“By asking this court to decide what another
court should do in a future case, petitioners are posing a hypothetical question, the
answer to which would be an advisory opinion.”).
Sabatino argues that his case is not moot under the voluntary cessation
doctrine. Under that rule, a defendant’s voluntary cessation of a challenged
practice “does not automatically moot the case” unless it is “absolutely clear that
the allegedly wrongful behavior could not reasonably be expected to recur.”
United States v. Askins & Miller Orthopaedics, P.A., 924 F.3d 1348, 1355 (11th
Cir. 2019) (quotation marks omitted). But the conduct at issue in this case does not
fall under the voluntary cessation doctrine, since Sabatino’s renewed ability to
communicate with Rosenbaum and Acevedo only came about pursuant to a court
order.
7

USCA11 Case: 19-12916

Date Filed: 08/17/2020

Page: 8 of 8

Sabatino also argues his appeal is not moot because the communication
restrictions he challenges are “very likely to recur in the future.” It is true that
there is a “narrow exception” to the mootness doctrine when the action challenged
in a lawsuit is “capable of being repeated and evading review.” Soliman, 296 F.3d
at 1242–43. But this exception applies “only in the exceptional circumstance in
which the same controversy will recur and there will be inadequate time to litigate
it prior to its cessation.” Al Najjar, 273 F.3d at 1340. Sabatino has not shown that
he is likely to be barred from communicating with Rosenbaum or Acevedo in the
future. And in the event that he is, he has not argued that he would have
inadequate time to litigate that issue. See id. at 1342 (holding that the remote
possibility of recurrence is not enough to overcome mootness, “and even a likely
recurrence is insufficient if there would be ample opportunity for review at that
time”). Sabatino therefore has not shown that this exception to mootness applies to
his appeal.
IV.
On this record, there is no active case or controversy in this appeal and we
dismiss it as moot.
APPEAL DISMISSED.

8

APPENDIX J

USCA11 Case: 19-12916

Date Filed: 11/23/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-12916-HH
________________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
JAMES PETER SABATINO,
a.k.a. James Prolima,
a.k.a. Jimmy Prolima,
a.k.a. James Harvey,
a.k.a. Lenny Santiago,
a.k.a. Jimmy Gutta,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: WILSON, MARTIN, and ANDERSON, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

APPENDIX K

USCA11 Case: 19-12916

Date Filed: 12/01/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
______________
No. 19-12916
______________
District Court Docket No.
1:16-cr-20519-JAL-1
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
JAMES PETER SABATINO,
a.k.a. James Prolima,
a.k.a. Jimmy Prolima,
a.k.a. James Harvey,
a.k.a. Lenny Santiago,
a.k.a. Jimmy Gutta,
Defendant - Appellant.
__________________________________________
Appeal from the United States District Court for the
Southern District of Florida
__________________________________________
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: August 17, 2020
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

ISSUED AS MANDATE 12/01/2020

